<html>
<title> - OVERSEAS SECURITY: HARDENING SOFT TARGETS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





               OVERSEAS SECURITY: HARDENING SOFT TARGETS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2005

                               __________

                           Serial No. 109-45

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-704                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2005.....................................     1
Statement of:
    Egan, Ambassador Wesley W., ret., chairman, 2003 Foley 
      Accountability Review Board; Ambassador John W. Limbert, 
      president, American Foreign Service Association; and Joseph 
      Petro, executive vice president and managing director, 
      Citigroup Security and Investigative Services, Citigroup...    96
        Egan, Ambassador Wesley W................................    96
        Limbert, Ambassador John W...............................   103
        Petro, Joseph............................................   113
    Ford, Jess, Director, International Affairs and Trade 
      Division, U.S. Government Accountability Office; Greg 
      Starr, Deputy Assistant Secretary for Countermeasures, 
      Bureau of Diplomatic Security and Foreign Missions, U.S. 
      Department of State; Ambassador Prudence Bushnell, Dean, 
      School of Leadership and Management, the George P. Shultz 
      National Foreign Affairs Training Center, U.S. Department 
      of State; and Keith Miller, Director, Office of Overseas 
      Schools, U.S. Department of State..........................    11
        Bushnell, Ambassador Prudence............................    43
        Ford, Jess...............................................    11
        Miller, Keith............................................    53
        Starr, Greg..............................................    27
Letters, statements, etc., submitted for the record by:
    Bushnell, Ambassador Prudence, Dean, School of Leadership and 
      Management, the George P. Shultz National Foreign Affairs 
      Training Center, U.S. Department of State, prepared 
      statement of...............................................    46
    Egan, Ambassador Wesley W., ret., chairman, 2003 Foley 
      Accountability Review Board, prepared statement of.........    99
    Ford, Jess, Director, International Affairs and Trade 
      Division, U.S. Government Accountability Office, prepared 
      statement of...............................................    14
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Limbert, Ambassador John W., president, American Foreign 
      Service Association, prepared statement of.................   106
    Miller, Keith, Director, Office of Overseas Schools, U.S. 
      Department of State, prepared statement of.................    55
    Petro, Joseph, executive vice president and managing 
      director, Citigroup Security and Investigative Services, 
      Citigroup, prepared statement of...........................   116
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Starr, Greg, Deputy Assistant Secretary for Countermeasures, 
      Bureau of Diplomatic Security and Foreign Missions, U.S. 
      Department of State:
        Letter dated July 14, 2005...............................    71
        Prepared statement of....................................    31

 
               OVERSEAS SECURITY: HARDENING SOFT TARGETS

                              ----------                              


                         TUESDAY, MAY 10, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Duncan, Dent, Kucinich, and 
Ruppersberger.
    Staff present: Lawrence Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Robert A. 
Briggs, clerk; Andrew Su, minority professional staff member; 
and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Overseas Security: Hardening Soft 
Targets'' is called to order.
    In 2002 terrorists assassinated an American diplomat in 
front of his home in Amman, Jordan. Lawrence Foley, an employee 
of the U.S. Agency for International Development, was a 
dedicated public servant working to bring economic growth and 
humanitarian aid to a troubled region. But to his terrorist 
attackers, he was political symbol and a ``soft target.''
    Recognizing a growing threat to U.S. personnel, the 
Department of State has done a great deal to harden embassies 
and missions. State's Bureau of Overseas Buildings Operations, 
under the leadership of General Charles Williams, has pursued 
an ambitious, risk-driven program to construct secure new 
facilities and retrofit or reconfigure older work spaces to 
reduce vulnerabilities.
    But as embassy and consulate compounds are fortified, U.S. 
Government personnel and their families living and working 
outside those walls draw the aim of criminals and terrorists 
looking for the next tier of targets. So hardening official 
buildings is not enough. The security of soft targets hinges on 
the harder tasks of building personal awareness and sustaining 
institutional vigilance. Adding cement to the physical plant is 
an easy part. Precious lives depend on strengthening 
protections for America's human capital abroad.
    In a report for the subcommittee released today, the 
Government Accountability Office [GAO], concludes the State 
Department has not yet developed a comprehensive strategy that 
clearly identifies safety and security requirements or the 
resources needed to better protect U.S. officials and their 
families from terrorist threats abroad. Despite recommendations 
by several panels since the late 1980's, programs to enhance 
security outside the embassy walls remain a porous patchwork. 
No hands-on antiterrorism training course is required for U.S. 
personnel and dependents going overseas. Host nation 
cooperation varies widely. Federal departments and agencies do 
not effectively or consistently monitor personal security 
programs.
    These desultory efforts are too easily overwhelmed by the 
powerful human tendency to conclude, ``It can't happen to me,'' 
or ``If it's going to happen, there's nothing I can do about 
it.'' Defeating the myths of invulnerability and inevitability 
requires teaching government employees and their families how 
to recognize threats, how to take reasonable precautions, and 
how to handle themselves appropriately in menacing situations. 
Those lessons need to be reinforced regularly as part of a 
strategic focus that links embassy security and personnel 
safety to harden today's soft targets against the very real 
threats waiting outside.
    The horrific terrorist attack on the school in Beslan, 
Russia last year reminded the world once again that terrorism 
is blind to moral boundaries. Terrorists recognize no zone of 
safety for the innocent. American officials and their families 
abroad must be equipped to maintain a perimeter of personal 
safety wherever they go.
    Despite many studies, numerous recommendations, several 
efforts and some progress, our witnesses this afternoon will 
describe just how much must still be done to shield America's 
soft target abroad. We look forward to their testimony.
    At this time the Chair recognizes Mr. Duncan.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.001
    
    [GRAPHIC] [TIFF OMITTED] T2704.002
    
    Mr. Duncan. Mr. Chairman, thank you for calling this very 
important hearing.
    I am sitting down here only because I have some other 
meetings set up, so I am not going to be able to stay for the 
whole hearing. I will stay for as long as I can. Mr. Chairman, 
I admire the way you handle this subcommittee. I think you are 
one of the finest chairmen that I have ever worked with in my 
years in the Congress, and you have turned this subcommittee 
into an extremely important subcommittee dealing with very 
important topics.
    I will say this. We have seen in history, wars started over 
the killing of one citizen of one nation by a citizen from 
another nation, so we have to do everything possible to protect 
our citizens so passions do not become inflamed and so we do 
not get into wars we should not get into.
    On the other hand, I recall Governor Gilmore, who chaired 
the President's Commission on Terrorism and what to do about 
it, in his cover letter to the President, he said we must 
resist the urge to seek total security, because it is not 
achievable and it will drain resources away from things that 
are attainable.
    So the key question is what does both common sense and 
intelligence tell us about what is achievable? We cannot 
protect every American citizen from every conceivable threat 
that is out there. But what can we do that is realistic, that 
is cost effective? We need to not just do anything and 
everything that anybody can think of because it has the word 
``security'' attached to it. I think that is why this hearing 
is important: what is achievable and what is reasonable at the 
same time. Thank you.
    Mr. Shays. Thank you. I particularly thank you for your 
very thoughtful words.
    Mr. Kucinich, welcome, the ranking member of the 
subcommittee.
    Mr. Kucinich. Mr. Chairman, thank you. Good afternoon to 
all of the witnesses.
    The safety and security of our Nation's Ambassadors, 
foreign service officers, civil servants, and their families 
concern this subcommittee and concern me deeply. The number of 
incidents of international terrorism against so-called ``soft 
targets'' is rising, and Congress should assist the State 
Department in every way it can so our diplomats can continue 
their invaluable work of representing America's values and 
ideals around the world.
    While I believe the State Department is doing all it can to 
protect its employees abroad, it continues to play fast and 
loose with the Congress. Mistakes made in last year's annual 
survey of international terrorism and the decision by the 
Department to simply not include the statistics in the report 
anymore are deeply troubling.
    By all accounts, violence around the world is rising 
sharply. According to the National Counterterrorism Center, 
there were 651 incidents of terrorist acts last year that 
killed nearly 2,000 people. Violence directed against Americans 
and disapproval of our Nation's foreign policy actions are at 
an all-time high. Those people who are at our embassies are on 
the front lines. Whether on the battlefield or not, they are on 
the front lines. They know quite well just how vulnerable of a 
target they are.
    The administration needs to have an open and honest dialog 
with Congress and the American people concerning the security 
of those who work overseas for the United States of America. We 
need to have all of the facts in front of us and we need to 
hold the State Department accountable for its actions. However, 
improving overseas security is not just about better 
counterterrorism strategies, increased surveillance, driver 
training courses or evacuation drills. The real issue is money 
and where our priorities lie. The President's fiscal year 2006 
budget request for the Department of Defense is $419.3 billion. 
Last week Congress approved the $82 billion supplemental for 
fiscal year 2005 for the Department of Defense for operations 
in Iraq and Afghanistan.
    On the other hand, the fiscal year 2006 budget request for 
the State Department was just $13.3 billion, or 31 times 
smaller than that for the Pentagon. No wonder there is no money 
left over for overseas security, our Nation's coffers are 
totally depleted.
    The State Department is asking for only $15 million a year 
to protect soft targets, including just $10 million to increase 
security at American and international schools abroad. 
Meanwhile, the Pentagon is asking for $7.8 billion for a 
missile defense program, a program which has repeatedly failed 
basic tests and where there is no end to spending in sight. I 
voted against the President's request for supplemental funds 
and am a strong opponent of the missile defense program, but I 
am a strong proponent of the men and women who serve in the 
State Department. I have visited many of our embassies. I know 
the level of dedication of the people who work for our 
government. I know they are serving this country honorably, and 
the least we can do is make sure that we provide for their 
security.
    In my opinion, more of these precious resources need to be 
spent on physical capital modernization, technology and 
increased resources for public diplomacy at our embassies, 
consulates, and posts abroad. Too many of our State Department 
offices overseas are in shabby condition, overcrowded, and lack 
modern communications technology such as Internet and e-mail. 
We cannot keep trying to solve 21st-century problems with 20th-
century thinking.
    Mr. Chairman, thank you for holding this hearing. I hope 
this subcommittee is going to do everything it can to protect 
our diplomatic corps.
    Mr. Shays. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T2704.003

[GRAPHIC] [TIFF OMITTED] T2704.004

[GRAPHIC] [TIFF OMITTED] T2704.005

[GRAPHIC] [TIFF OMITTED] T2704.006

    Mr. Shays. The Chair would agree with much of what the 
ranking member said about the need to spend more. I know that 
would be welcome on the part of the State Department. And I 
agree with his comments about the patterns of global terrorism. 
The report needs to include the statistics and it needs to have 
those statistics analyzed and tell us what they mean. We have 
already written to the Secretary voicing that view.
    At this time let me just take care, while I have Members 
here, to be official.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    I recognize the first panel, Mr. Jess Ford, Director, 
International Affairs and Trade Division, U.S. Government 
Accountability Office; Mr. Greg Starr, Deputy Assistant 
Secretary for Countermeasures, Bureau of Diplomatic Security 
and Foreign Missions, U.S. Department of State; Ambassador 
Prudence Bushnell, Dean, School of Leadership and Management, 
the George P. Shultz National Foreign Affairs Training Center, 
U.S. Department of State; and Mr. Keith Miller, Director, 
Office of Overseas Schools, U.S. Department of State. We 
welcome all of our panelists and invite them to stand. As you 
know, we swear in all of our witnesses.
    [Witnesses sworn.]
    Mr. Shays. I note for the record that all of the witnesses 
have responded in the affirmative.
    We will start with you, Mr. Ford.

STATEMENTS OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
  TRADE DIVISION, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; GREG 
 STARR, DEPUTY ASSISTANT SECRETARY FOR COUNTERMEASURES, BUREAU 
OF DIPLOMATIC SECURITY AND FOREIGN MISSIONS, U.S. DEPARTMENT OF 
STATE; AMBASSADOR PRUDENCE BUSHNELL, DEAN, SCHOOL OF LEADERSHIP 
 AND MANAGEMENT, THE GEORGE P. SHULTZ NATIONAL FOREIGN AFFAIRS 
 TRAINING CENTER, U.S. DEPARTMENT OF STATE; AND KEITH MILLER, 
 DIRECTOR, OFFICE OF OVERSEAS SCHOOLS, U.S. DEPARTMENT OF STATE

                   STATEMENT OF JESS T. FORD

    Mr. Ford. Thank you, Mr. Chairman, members of the 
subcommittee. I am pleased to be here today to discuss the 
report we are releasing today on State's efforts to protect 
U.S. officials and their families from terrorist attacks 
outside the embassies. U.S. Government officials and their 
families living and working overseas are at risk from terrorist 
threats. Since 1968, 32 embassy officials have been attacked, 
and 23 fatally, by terrorists outside the embassy.
    As the State Department continues to improve security at 
U.S. embassies, concerns are growing that terrorist groups are 
likely to focus on soft targets, such as homes, schools and 
places of worship. Recent terrorist attacks against housing 
complexes in Saudi Arabia, a school in Russia and places of 
worship in Turkey illustrate the growing threat.
    Our report addresses four issues: whether State Department 
has a strategy for soft target protection; an assessment of 
State's efforts to protect U.S. officials and their families 
against terrorist attacks while traveling to and from work; 
State's efforts to improve security at schools overseas 
attended by children of U.S. officials; and issues related to 
protection of U.S. officials and their families at their 
residences. I will also discuss the recommendations in our 
report.
    The State Department has a number of programs and 
activities to protect U.S. officials and their families outside 
the embassy, including security briefings, protection at 
schools and residences, and surveillance detection. However, 
the State Department has not developed a comprehensive strategy 
that clearly identifies safety and security requirements and 
resources needed to protect U.S. officials and their families 
abroad from terrorist threats outside the embassy. State 
Department officials have raised a number of legal, management, 
and resource challenges related to developing and implementing 
such a strategy but they have agreed one is needed. The 
Department has indicated to us that they are now in the process 
of developing such a strategy.
    State has not fully implemented one of the most important 
safeguards against terrorist attacks while employees travel to 
and from work: counterterrorism training. Three State-initiated 
investigations in terrorist attacks against U.S. officials 
outside the embassies found officials lacked the necessary 
hands-on training in such areas as surveillance detection and 
defensive and evasive driving techniques that could have saved 
their lives. The investigations recommended that the State 
Department provide hands-on counterterrorism training and 
implement accountability measures to ensure compliance with 
personal security procedures. However, we found that the State 
Department has not fully implemented all of these 
recommendations. For example, State's hands-on counterterrorism 
training course is still not required, and Ambassadors, DCMs, 
and regional security officers are not fully trained to 
implement State's counterterrorism procedures.
    In addition, the accountability procedures monitoring 
activities and checklist developed in 2003 designed to promote 
personal security were not being followed at any of the five 
posts we visited. In response to congressional directives, 
State instituted a program in 2003 designed to improve the 
protection of U.S. officials and their families at schools from 
terrorist threats. This multi-phase program provides basic 
security hardware such as shatter-resistant window film, 
alarms, and radios, and additional protective measures designed 
based on the threat levels in the country. The first two phases 
are focused on Department-sponsored schools which have 
previously received grant funding from the State Department. 
State has also been provided money to support non-Department-
sponsored schools with American students. However, during our 
visits to the five posts, regional security officers were 
unclear about which schools qualified for security assistance 
and what resources would be provided to the schools in which 
just a few American children are enrolled.
    State's program to protect U.S. officials and their 
families at residences is largely designed to deter crime. To 
reduce the terrorist threat, some posts limit the number of 
U.S. officials living in a specific apartment building. At the 
post we visited, surveillance detection teams were used to 
protect schools in residential areas. Several regional security 
officers told us the use of surveillance detection teams could 
provide greater deterrence to potential terrorist attacks. 
However, State's current guidance limits the use of 
surveillance detection teams for these purposes.
    We made several recommendations to the State Department 
designed to improve the safety and security of U.S. officials 
and their families. We recommended that the State Department 
develop its soft target strategy to include a determination of 
the full scope of responsibilities and the legal and financial 
ramifications of securing U.S. officials and their families 
outside the embassy; that they develop corresponding protection 
programs and activities and integrate the elements of the soft 
target strategy into embassy emergency action plans. We also 
recommended that the State Department bolster its training and 
compliance procedures to include making counterterrorism 
training mandatory at critical and high-threat posts.
    We also recommended that the State Department fully 
implement the personal security accountability system in 
response to the 2003 Accountability Review Board's report and 
develop accountability standards that help ensure compliance at 
all overseas posts.
    This concludes my opening statement. I would be happy to 
answer any of your questions.
    Mr. Shays. Thank you, Mr. Ford.
    [Note.--The GAO report entitled, ``Overseas Security, State 
Department Has Not Fully Implemented Key Measures to Protect 
U.S. Officials from Terrorist Attacks Outside of Embassies,'' 
may be found in subcommittee files.]
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.007
    
    [GRAPHIC] [TIFF OMITTED] T2704.008
    
    [GRAPHIC] [TIFF OMITTED] T2704.009
    
    [GRAPHIC] [TIFF OMITTED] T2704.010
    
    [GRAPHIC] [TIFF OMITTED] T2704.011
    
    [GRAPHIC] [TIFF OMITTED] T2704.012
    
    [GRAPHIC] [TIFF OMITTED] T2704.013
    
    [GRAPHIC] [TIFF OMITTED] T2704.014
    
    [GRAPHIC] [TIFF OMITTED] T2704.015
    
    [GRAPHIC] [TIFF OMITTED] T2704.016
    
    [GRAPHIC] [TIFF OMITTED] T2704.017
    
    [GRAPHIC] [TIFF OMITTED] T2704.018
    
    [GRAPHIC] [TIFF OMITTED] T2704.019
    
    Mr. Shays. Mr. Starr.

                    STATEMENT OF GREG STARR

    Mr. Starr. Thank you, Mr. Chairman. Is the statement 
limited to 5 minutes?
    Mr. Shays. No, we let it roll over another 5 and you will 
be gaveled down at 10.
    Mr. Shays. Mr. Chairman, and members of the subcommittee, I 
am honored to be before you today with my distinguished 
colleagues, Ambassador Bushnell, Keith Miller, and Jess Ford 
from GAO.
    I would first like to say we appreciate the GAO's report 
and the hard work that went into this effort. Prior to 
addressing the report's findings, I believe it would be useful 
to provide the subcommittee some background information on our 
global security programs to put the soft targets program into 
perspective.
    For many years, but especially since the East African 
bombings, diplomatic security, and many other elements, the 
Department of State has rolled out a robust array of security 
and counterterrorism programs to address the threat of 
terrorist attacks against U.S. diplomatic facilities and our 
personnel and our families overseas.
    The modern incarnation of the diplomatic security service 
and vast majority of our programs originated with the Omnibus 
Diplomatic Security and Antiterrorism Attack Act of 1986.
    Our efforts were reenergized following the East Africa 
bombings of our embassies in Nairobi and Dar es Salaam in 1998. 
The tragic attacks of September 2001 are often referred to as 
the event that catapulted terrorism into the forefront of U.S. 
policy. However, our real call to action was the 1998 bombings 
of our embassies. Funding and legislation following those acts 
provided many of the tools we use today to address global 
terrorism against U.S. officials, facilities, and our families 
abroad.
    A linchpin of our overall strategy has been programs to 
harden our embassies and consulates, seen as the traditional 
symbols of U.S. overseas presence. We used funding in 1999, 
2000, and 2001 to implement security upgrades and enhancement 
of our facilities to the extent possible, but we simply could 
not erase critical vulnerabilities such as lack of setback and 
weak-blast resistance. Since then, we have engaged in long-term 
capital construction program, which members discussed, which is 
generously funded by Congress to replace 180 of our most 
vulnerable facilities. American embassies and consulates are 
more than just symbolic targets, they are essential platforms 
from which we conduct diplomacy, consular affairs, commerce and 
trade, security, law enforcement, global health issues, and a 
myriad of other national security programs in foreign 
countries.
    As the administration and Congress have so aptly 
recognized, protection of the homeland needs to start abroad, 
not just at our borders. Although historically the vast 
majority of catastrophic attacks and threats tend to be aimed 
at our official facilities, al Qaeda and other terror groups 
will attack soft targets when other more hardened assets prove 
too difficult.
    Well before the global al Qaeda threat, we implemented 
programs to protect and educate our foreign and civil service 
officers, their family members, and private American citizens 
on the terrorist threats overseas. These programs are not 
solely managed by my service, Diplomatic Security, but cut 
across many Department elements and continue to be refined 
today to address the global threat against our interests.
    Many of these programs lie outside the scope of the GAO 
report before you, but they deserve mention in your 
consideration of the overall security posture. A critical 
element of our program to protect our employees, their families 
and official facilities, and a key element of our soft target 
strategy, is our security law enforcement and intelligence 
relationship with host government entities. Host country 
police, security, and intelligence forces are in many instances 
the first line of defense in protecting us against potential 
threats. Cultivating and developing liaison relationships with 
host government security services is a core function of 
regional security officers and other elements within the 
mission.
    RSOs spend a great deal of time and energy working on 
improving the capabilities of the local police. In many 
locations, the police and security services are excellent; but 
overall, the capabilities are uneven. The diplomatic security 
Antiterrorist Assistance Program, or ATA, is an essential 
element in helping partner countries combat terrorism with the 
training, equipment and technology they need to carry the fight 
to the terrorists. ATA training for host government security 
officials not only helps to ensure the safety of our American 
diplomats, but all Americans traveling into these countries.
    When we look to our own security resources, we start with 
the offices of the regional security officers. Today we have 
500 RSOs at nearly 200 missions worldwide. Many of these 
positions were created following lessons learned from the East 
African bombings. Each RSO serves as the professional adviser 
to the chief of mission on all security matters, and together 
with the chief of mission, they are responsible under law and 
regulation for the security of the personnel under their 
charge.
    One of the most important functions an RSO performs is 
developing post-specific briefings and security programs 
tailored to the threat environment. Every diplomatic mission 
has thoroughly researched and categorized threat ratings for 
transnational terrorism, indigenous terrorism, political 
violence, crime, counterintelligence and technical intelligence 
threats. The first four drive resources for security programs 
on everything from residential security and local guards to the 
surveillance detection programs, protection of key mission 
officials, extensive briefings for staff and families, private 
sector liaison, and physical security of all of facilities, 
armored vehicles, and staffing levels. RSOs serve on the 
Emergency Action Committee at every post and play a core role 
in the development of these emergency action plans. The 
emergency action plans play prominently in deciding how posts 
and the Department address all types of situations and threats. 
In today's world, the plan covers a wide spectrum, including 
terrorist threats and bombings, chemical, biological or 
radiological incidents, aviation and natural disasters, 
authorized or ordered departures, and post evacuations.
    These plans are exercised at our missions and are routinely 
part of the post-specific security briefing program for 
employees and family members. Overseas schools have always been 
closely linked with the overall security of the missions, and 
we expect this relationship to grow even closer. Overseas 
schools attended by family members are now being formally added 
to our emergency action plans, and future post-specific 
emergency action plans will include physical security features, 
security plans and procedures and emergency drills at the 
schools themselves.
    It is telling that in a recent study by the Foreign Service 
Institute, 87 percent of our officers and families serving 
overseas for 15 years or more will have served at a post that 
has experienced a crisis as we define them in our emergency 
action plans. We do not exercise because something might 
happen, we exercise because crises will happen.
    Turning specifically to the GAO report, the 
recommendations, and the protection programs for personnel when 
they are not in an embassy or consulate. The Department has 
commenced several new programs and enhanced existing ones based 
on our experiences, results from accountability review boards, 
inspector general recommendations, and in response to the 
advice give to us from GAO.
    We deeply appreciate the past and continued support of 
Congress in this ongoing effort. In this GAO report entitled 
``State Department Has Not Fully Implemented Key Measures to 
Protect Americans Outside the Embassy,'' GAO is stating we 
could do more. GAO is correct, and has identified in its 
recommendations a few key areas that we can improve on.
    However, I believe it is important to provide some 
clarification of the existing programs that we have in place to 
give you a sense of the importance we attach to the issue, the 
time we spend on it, the level of effort and funding it takes 
to protect our employees and families overseas in places other 
than hardened facilities.
    In the past 7 years, we have accomplished the following: 
delivered over 1,500 armored vehicles to our posts overseas to 
provide the ability to transport our people in safety in 
heightened threat conditions; instituted a comprehensive 
chemical, biological, and radiological protection program, 
providing escape masks and equipment for our overseas 
personnel; provided local guards, roaming patrols and react 
teams at our residences according to the threat readings, 
costing in excess of $100 million a year.
    Let me skip to one part that we must discuss, and that is 
the management of security issues and crisis management that 
stems from the top, the chief of mission. Every Ambassador and 
Consul General today understands his security responsibilities. 
Emergency action plans are implemented almost weekly in some 
corner of the world, and one of the most important tools and 
visible signs of the efforts made to protect our employees and 
families are the evacuations.
    When the threat is too high, trip wires are crossed, or 
political violence or local instability too dangerous, we move 
nonessential families and employees out of harm's way. On 
average, regrettably, we have one authorized or ordered 
departure from a post every 3\1/2\ weeks for the past 16 years. 
A sign of the times is the large number of posts we currently 
have in drawdown or unaccompanied status.
    Beyond that, sir, let me skip to the one recommendation I 
think we must agree with from GAO which is that we have to move 
from a system of briefing our personnel to training our 
personnel. It is a sign of the times that we believe we must 
increase the trade craft that we give our people, and give them 
better tools when they go overseas.
    The terrorism threat against our people and facilities 
remains high. We must equip our people to respond to that.
    I think I will cut it at that point.
    Mr. Shays. Is there anything that you left out that is 
important to share?
    Mr. Starr. I will be happy to address your questions after 
opening statements.
    [The prepared statement of Mr. Starr follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.020
    
    [GRAPHIC] [TIFF OMITTED] T2704.021
    
    [GRAPHIC] [TIFF OMITTED] T2704.022
    
    [GRAPHIC] [TIFF OMITTED] T2704.023
    
    [GRAPHIC] [TIFF OMITTED] T2704.024
    
    [GRAPHIC] [TIFF OMITTED] T2704.025
    
    [GRAPHIC] [TIFF OMITTED] T2704.026
    
    [GRAPHIC] [TIFF OMITTED] T2704.027
    
    [GRAPHIC] [TIFF OMITTED] T2704.028
    
    [GRAPHIC] [TIFF OMITTED] T2704.029
    
    [GRAPHIC] [TIFF OMITTED] T2704.030
    
    [GRAPHIC] [TIFF OMITTED] T2704.031
    
    Mr. Shays. I do want to say, I don't think the GAO said you 
could do more, I think they were saying you must do more.
    Mr. Starr. We must, sir.
    Mr. Shays. Ambassador Bushnell, were you in Kenya during 
the time of the attack?
    Ambassador Bushnell. That's correct. I was the U.S. 
Ambassador at the time.
    Mr. Shays. So this is more than just theory.

           STATEMENT OF AMBASSADOR PRUDENCE BUSHNELL

    Ambassador Bushnell. This is more than just theory. I thank 
you for inviting me to testify. This is the first time I have 
been asked to do so since al Qaeda bombed the American 
embassies in Nairobi and Dar es Salaam in 1998. I greatly 
appreciate your attention to the issue of overseas security, 
and I would like to give you a summary of my written testimony.
    While the GAO report addresses so-called soft targets, and 
its recommendations, if implemented, would strengthen overseas 
security in general, an attack on family members or employees 
serving under chief-of-mission authority is a nightmare beyond 
belief, whether it occurs at a hard or a soft-target.
    Nairobi was a case in point. The bomb that exploded in our 
parking lot on August 7 killed 213 people instantly and wounded 
5,000 more. We suffered a 50 percent casualty rate in the 
embassy, and the remaining 50 percent had no 911, no police, no 
fire department, no rescue squad and no ambulance. Kenya, like 
over half the countries to which Department personnel are 
assigned, is a developing country. On a normal day, medical 
facilities are inadequate. On August 7, they were overwhelmed.
    Survivors in our building, including a high school student 
and a college intern, regrouped on the front steps and 
voluntarily returned to what was a death trap to tend to the 
injured, dig colleagues out of the rubble and carry out the 
dead. For the first critical 24 hours, we were alone on our 
own. The heroism of the entire community was extraordinary, and 
I think you would have been as proud as I was.
    Although American employees of the embassy were given the 
opportunity to curtail their assignments, an option unavailable 
to our Kenya colleagues, few chose to leave. Instead, some of 
the wounded returned, often with shards of glass still embedded 
in them. We lost two moms, and their surviving children 
remained in school. Trauma and sorrow permeated the community. 
Absent counseling and other services available at home, 
parents, students, teachers, and community members relied upon 
one another for support and healing.
    The impact of the Nairobi and Dar es Salaam bombing circled 
the globe. The U.S. foreign affairs community is a small one, 
and work is not just a job, it is a family commitment. So 
August 1998 for us was September 11th.
    Since that day, the Foreign Service Institute and other 
elements of the Department of State have done much to prepare 
people to live in a far more dangerous world. All American 
entry-level employees receive basic security training 
incorporated in orientation programs for civil and foreign 
service employees and locally engaged staff, including foreign 
service nationals. Employees from other agencies attend the 
mandatory introduction to working in an embassy course.
    Security and crisis management training is also embedded in 
all of FSI's, the Foreign Service Institute's trade craft 
classes, including those provided to foreign service nationals. 
For senior-level employees, we have created a crisis leadership 
seminar which focuses specifically on the skills necessary 
during a crisis, and we are planning a similar one for mid-
level employees.
    The security overseas seminar which concentrates on life in 
overseas environment, is mandatory for all Federal employees 
and recommended for eligible family members. A similar age-
appropriate program, Young SOS, is offered to young family 
members grades 2-12. At post, people receive briefings tailored 
to the host country, as well as hands-on training for briefing 
teams out of Washington. In addition, crisis management teams 
fan out across the world to help emergency action committees 
exercise their emergency plans biannually.
    With our encouragement, foreign service nationals are 
participating. Where we can, we also include overseas schools 
and appropriate host government officials.
    Are we satisfied that we are doing is enough? No. The GAO 
report makes the point that more rigorous DSAC training should 
become mandatory for everyone going to critical threat posts, 
and I agree. Colleagues have raised additional discussions, 
such as more defensive and evasive driving training because 
road accidents remain the No. 1 source of death overseas 
amongst Americans, better preparation for chemical or 
biological attacks, and greater coverage of emergency 
procedures.
    As the GAO report points out, leadership is key. 
Counterterrorism, security and crisis-management issues take up 
more than any single topic at both the Ambassadorial and DCM 
seminars. Chief of missions are explicitly advised in the 
letter from the President, ``I expect you to take direct and 
full responsibility for the security of your mission and all 
the personnel for whom you are responsible, whether inside or 
outside the chancery.'' Everyone takes this very seriously.
    The Ambassadorial seminar emphasizes that responsibility 
and the leadership role of the chief of mission and spouse 
toward the entire community not just within the embassy. 
Attention to the institutions that support the community, such 
as schools or employee-sponsored recreation clubs, comes with 
that role.
    For the 2005 series of Ambassadorial seminars, we have 
redesigned the aspect of the program devoted to security, 
counterterrorism and crisis management, and we will continue to 
refine the design.
    Embassy leadership is now more aware and better prepared 
for crises than we were in the past. No one wants to go to the 
number of funerals and memorial services my colleagues and I 
attended; and if we do, we want to be able to truthfully say 
``I did my very best'' when we look into the eyes of grieving 
survivors and family members.
    The incremental changes offered by the GAO report will, I 
think, improve security, but I would like to suggest three more 
profound challenges.
    One, finding the right balance between living vigilantly 
and normally. People do not stay on high alert for long periods 
of time. Scare tactics are ultimately self-defeating, and 
administrative mandates such as checklists risk becoming rote 
exercises. To use a metaphor, our challenge is to ensure people 
are looking both ways before they cross the street, becoming 
neither paralyzed nor indifferent to the oncoming traffic.
    Two, maintaining a consistency of funding and attention to 
security issues. In his report to Congress in 1998, Admiral 
Crowe noted that, ``The boards were especially disturbed by the 
collective failure of the U.S. Government over the past decade 
to provide adequate resources to reduce the vulnerability of 
U.S. diplomatic missions to terrorist attacks in most countries 
around the world. Responsibility for this failure can be 
attributed to several administrations and their agencies, 
including the Department of State, the National Security 
Council, the Office of Management and Budget, as well as the 
U.S. Congress.''
    The times have changed, thank heaven, since that report was 
written. I appreciate Congress' support of the Department and 
the security of its people, and I fervently hope it will 
continue.
    No. 3, changing the ethos and the image of the Department 
of State. Today, 64 percent of Department employees overseas 
and 87 percent of foreign service generalists with 15 years or 
more of service can count on experiencing evacuation, civil 
unrest, kidnapping, natural disasters, assassination, terrorist 
attacks, biochemical attacks, and other crises listed in the 
foreign affairs handbooks, and yet the old stereotype of 
Department employees as men in striped pants, which I saw 
recently in an article, continue. We have to change that 
perception.
    My colleagues are fiercely patriotic, willing to put 
themselves and their families at risk in order to make a 
difference on behalf of the American people. They deserve to 
thrive. At the very least, they deserve our best efforts to 
keep them safe.
    Mr. Chairman, I appreciate what you are doing and hope we 
can continue to count on you and your fellow subcommittee 
members as our partners and our advocates. Thank you.
    [The prepared statement of Ambassador Bushnell follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.032
    
    [GRAPHIC] [TIFF OMITTED] T2704.033
    
    [GRAPHIC] [TIFF OMITTED] T2704.034
    
    [GRAPHIC] [TIFF OMITTED] T2704.035
    
    [GRAPHIC] [TIFF OMITTED] T2704.036
    
    [GRAPHIC] [TIFF OMITTED] T2704.037
    
    [GRAPHIC] [TIFF OMITTED] T2704.038
    
    Mr. Shays. Thank you, Ambassador. I am so grateful you were 
invited to participate. And I apologize that this is the first 
time you have had a chance to be able to express what is a 
powerful statement and one which we will look forward to 
understanding better.
    Mr. Miller.

                   STATEMENT OF KEITH MILLER

    Mr. Miller. Mr. Chairman, thank you for the opportunity to 
discuss the Department's soft target programs for overseas 
schools. The mission of Overseas Schools is to ensure the best 
possible education for the dependents of U.S. Government 
employees abroad. Presently, we provide grant and technical 
assistance to 191 schools in 132 countries. And, interestingly, 
the enrollment in these schools is 103,000 children, of whom 
28,000 are U.S. citizens.
    Security in overseas schools has long been a concern of our 
office. When our regional educational officers travel overseas, 
they consult with regional security officers to encourage 
coordination with schools in reviewing security plans and 
otherwise assisting the schools with security issues. The 
Department has sent cables to all overseas posts in 1998, 2001, 
and again in 2003, directing the regional security officers to 
collaborate on security issues.
    The Office of Overseas Schools published an emergency 
procedures manual, which was reviewed by the Bureau of 
Diplomatic Security, which provides a checklist of security 
items and procedures the schools can use to frame their local 
emergency plans, and that manual was sent to all posts with the 
encouragement to work with schools in updating their security 
plans.
    In the Department's Fiscal Year 2003 Appropriations Act, 
Congress provided funds to the Bureau of Overseas Buildings 
Operations for security enhancement grants to overseas schools. 
And to carry out this mandate, the Bureau of Overseas Buildings 
Operations asked our office and the Bureau of Diplomatic 
Security to participate on the soft targets working group 
chaired by Overseas Buildings.
    Our office advises the committee on school matters and has 
acted as the vehicle for sending security enhancement grants to 
overseas schools. During the past 2 years, we have sent grants 
in two phases totaling over $27 million to schools assisted by 
the Department of State, always in accordance with their needs 
as determined by the regional security officers.
    Phases 3 and 4 of the soft targets program address security 
enhancement needs of overseas schools that do not have a 
preexisting grant relationship with the Department.
    The GAO report on overseas security says the full scope of 
the school program has not yet been determined. This process is 
essentially complete for phases 1 and 2 and is underway for 
phase 3. The soft targets working group has requested and is 
analyzing information from posts to determine our priorities 
for phases 3 and 4.
    The report further notes that schools are not tied to 
emergency plans. Our regional educational officers report very 
positive comments from the school administrators we visit about 
the cooperation they receive from post personnel on security 
matters, and I understand that some of the schools are 
presently integrated into the post security plans, and efforts 
are underway to bring all of the others into the post-emergency 
plans.
    What more needs to be done to better secure overseas 
schools? From our perspective the single best way to improve 
security in these schools is for the regional security officers 
to enhance their already close contact with school officials, 
to advise on security measures, and keep them fully informed 
about security matters.
    In closing, I would like to say that the response from the 
overseas schools receiving assistance has been extremely 
positive. School boards and school heads have been universally 
appreciative of this generous and critically important support 
from the U.S. Government.
    Thank you, and I look forward to responding to your 
questions.
    Mr. Shays. Thank you so much, Mr. Miller.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.039
    
    [GRAPHIC] [TIFF OMITTED] T2704.040
    
    [GRAPHIC] [TIFF OMITTED] T2704.041
    
    Mr. Shays. I am thinking of all of the statements in 
context not of Mr. Ford's work, but more in terms of Ambassador 
Bushnell's comments, because I am haunted by one thing you 
said. I am haunted by a number of things you said, actually, 
but one, the concept that 24 hours later you were still all 
alone. It makes me want to understand what you meant by that.
    Ambassador Bushnell. Sir, it was the ultimate irony that 
the airplanes carrying the rescuers broke down, both of them, 
so rescuers were 15 hours late, and so was the medical 
evacuation plan. It was just a series of snafus.
    Mr. Shays. And there is no doubt in our minds this was an 
attack by al Qaeda; correct?
    Ambassador Bushnell. The morning of the bombing we did not 
know. It was the very good work of the FBI that came in 
immediately that ultimately found evidence, traced the evidence 
into the Muslim community in Kenya, and found the al Qaeda 
connection.
    Mr. Shays. And your reference to the fact that it was 
August 8?
    Ambassador Bushnell. August 7.
    Mr. Shays. August 7, 1998. And for you and for our country, 
you are saying it should have been our September 11, 2001?
    Ambassador Bushnell. For the foreign affairs community, it 
was our September 11th. Because we are such a small service and 
we move all of the time, we know one another. Our children play 
together, we serve together. Nairobi was a medium-threat post. 
Dar es Salaam was off the map. If this could happen in two such 
safe posts in terms of terrorism, it could happen anywhere.
    Mr. Shays. And al Qaeda, seeing no significant response for 
handiwork at our embassies, was a huge message that either the 
United States was incapable or unwilling to confront their 
actions which was, in my judgment, a very huge incentive to 
continue in a bigger scale, and to interpret that, even with 
September 11, we might respond in kind of an anemic way.
    I guess my point to you is it should have been, and I say 
this to me as well, it should have been September 11th for all 
of us because the State Department is part of our family. They 
are our outreach to the rest of the world. It is a very 
poignant thing that you have told us.
    Ambassador Bushnell. Thank you for your words, Mr. 
Chairman. They are--I have been waiting a long time to hear 
them, as have the people behind me. I appreciate that.
    Mr. Shays. We will see how we can remedy that even more.
    This is what I would like to do. Mr. Starr, I would like 
you to tell me what you believe GAO was saying as succinctly as 
possible. And then, Mr. Ford, I want you to respond whether 
anything was left out or whether the intensity of a certain 
part was left out.
    By the way, Mr. Starr, you are in charge not just of 
personnel security in terms of the training that GAO made 
reference to, but also the hardened targets? All security.
    Mr. Starr. At the moment I am acting. Yes, I am in charge 
of it all.
    Sir, I believe the most salient point in the GAO report was 
a combination of what Congressman Duncan said that we have to 
find out what that balance is and what we can best do with the 
resources we are given. I think what GAO has specifically 
pointed out to us is we need to move and prepare our people 
better before they go overseas and while they are overseas.
    We have engaged in briefing programs for many, many years 
for our people. And FSI and Ambassador Bushnell have been doing 
a wonderful job. But at critical posts, we need to give them 
hands-on training, how to avoid terrorist attacks, how to 
recognize terrorist attacks, how to get out of them when they 
happen. That is the single most salient point that the GAO 
report hammers home for us.
    Mr. Shays. Tell me the other points that were made that you 
think need to be mentioned.
    Mr. Starr. GAO talks about accountability and how they 
would like to see some accountability systems built into our 
programs. We have in fact, as GAO noted, modified some of our 
evaluation forms for our employees so if they are not paying 
attention to security regulations, they can be written up on 
that. GAO's point is they believe that checklists should be--
personal accountability checklists should be put into place.
    But Ambassador Bushnell and I believe checklists become 
perfunctory and we have to work with that GAO recommendation 
and come up with something that promotes personal 
accountability, that brings our people to a realistic 
understanding of what they need to be aware of, and also we 
cannot put them on alert 24 hours a day, 7 days a week, 365 
days a year. We have to find that balance.
    Mr. Shays. You are kind of qualifying her point. One is 
better training at home and overseas, better accountability. Is 
the third issue the whole concept of a checklist?
    Mr. Starr. Personal accountability is what Jess and the GAO 
are talking about. We agree with personal accountability. We 
have to find ways to get people to better take their personal 
security seriously. One of the recommendations the GAO made, 
the checklist, we feel there are some downsides to that.
    Mr. Shays. Having been in the business of politics 31 years 
at hearings, when I get people when I was in the State 
government or now in the Federal Government, your job is not to 
filter out what resources you have and then you make the best 
of it. That is your job when you are given it, but your job is 
not to shield me from the reality. If we are not giving you the 
resources, you are not being unfaithful to me or the 
administration, you are doing your job. You are under oath. You 
have that requirement.
    If you prevent me from knowing what you need and therefore 
you do not claim it as a need, I will not be able to do my job 
and this subcommittee will not. You made reference to the fact 
with the resources you have available. I think GAO is saying 
what you need to do, and we need to figure out how to get you 
those resources.
    Mr. Starr. Thank you, sir.
    Mr. Shays. Ambassador, what do you think the report was 
saying? Any add-ons or qualifiers to what Mr. Starr said?
    Ambassador Bushnell. One of the things that for me was 
missing from the report is looking----
    Mr. Shays. Let me do this first. You are going to have a 
chance to say what should have been in the report because that 
is a great question, but what was in the report, do you think 
the issue--and I think you have a sense why I am asking this 
question; I want to see what is getting through to the 
Department that GAO is saying, and then we will talk about 
disagreements and how you might have written the report to 
include some other things.
    One is the better training at home and overseas. The other 
is the issue of accountability as raised by Mr. Starr. Do you 
think there are other issues that GAO was saying that State 
needs to pay attention to?
    Ambassador Bushnell. The overall tone of the report was to 
say that State Department is not doing enough to protect safe 
targets. As I said in my statement, I think the report gives 
some excellent incremental suggestions. I think there are 
challenges that go beyond those incremental suggestions.
    Mr. Shays. That is helpful to have you make that point as 
well.
    Mr. Miller, I know you look at it more from one 
perspective, but would you add anything else? Then I am going 
to ask Mr. Ford to say whether he is in agreement.
    What do you think the GAO is basically saying in addition 
to not doing enough to deal with the soft targets and not doing 
the kind of training at home and overseas for them when they 
are overseas? And finally, the whole issue of accountability. 
Is there anything else you would add to that?
    Mr. Miller. Training or involvement of school officials in 
the emergency action plans and in the crisis management 
training would be helpful to give them the necessary 
information to improve their security.
    Mr. Shays. You are seeing it from your position of being in 
charge of the schools?
    Mr. Miller. Correct. Yes.
    Mr. Shays. Mr. Ford, would you add anything or choose to 
emphasize it differently?
    Mr. Ford. The key points in our report have been mentioned.
    Mr. Shays. In this last line of questioning? Not whether 
they mentioned the statement. Do you concur with the answers 
you have just heard?
    Mr. Ford. Yes. I concur that the State Department 
recognizes in areas of training and accountability, there are 
some steps it can take to improve the current situation based 
on what we said in our report.
    Mr. Shays. I don't like the word ``can.''
    Mr. Ford. Whether they are actually implementing the 
suggestions at this point, and I heard something today that I 
was not aware of regarding the inclusion of the schools in the 
emergency evacuation plans which at the time we did our work, 
we had not seen that in the actual plans themselves. Assuming 
they have done that, that is a step in the right direction 
because that is one of our recommendations.
    Mr. Shays. Maybe it is part of your training to not be 
offensive. You say they can do it. Isn't your report saying 
that they need to do it?
    Mr. Ford. Absolutely. Specifically we talked about the need 
for hands-on training. We thought that ought to be made 
mandatory for every critical post overseas, and if they have 
the resources, they should reach down for the high-threat 
posts.
    Mr. Shays. Say that again.
    Mr. Ford. They have different categories of vulnerability 
that they have assigned to each post. With regard to terrorism, 
they have three categories based on threat: critical threat, 
high threat and medium threat.
    We have a chart in our report that outlines the number of 
posts that are in those categories, and, given the resource 
requirements with making mandatory training, we felt one way to 
prioritize that would be to start with the critical-threat 
posts first.
    Mr. Shays. I have to say, listening to this, if I was 
someone under high threat, I would like the training too, with 
all due respect.
    Mr. Ford. The issue is resources. The Department indicated 
it needs to spend more money on training.
    Mr. Shays. I feel like I am getting covered up with a web. 
It is good that you are telling me there is critical and medium 
and high threat, but is your report only saying they need to be 
trained for those that are critical, or are you saying all of 
them need to be?
    Mr. Ford. I think all of them need to be. I think--we're 
talking about prioritizing what should happen first, and we 
felt that critical threat should be first.
    Mr. Shays. And it's your testimony that critical is not 
being done right now?
    Mr. Ford. I'm not--I saw the numbers in the statement from 
Mr. Starr. I don't know if that covers all of the critical 
threat posts. I don't believe it does, but I'd defer to him on 
that.
    Mr. Shays. OK. Is there any other point that you want to 
make before we go back to the other witnesses here?
    Mr. Ford. Yes. I think there's some other areas that I 
think the Department should explore that, based on the----
    Mr. Shays. That are in the report?
    Mr. Ford. That are in the report that I--for example, the 
use of surveillance detection teams overseas. There was some 
uncertainty at the post we visited about how much of those 
teams could actually be used.
    Mr. Shays. And describe to me without disclosing anything 
that we don't want to disclose, but when you make reference to 
surveillance teams, what do you mean? Do you mean people going 
overseas to review vulnerabilities? Do you mean looking out for 
bad characters? What do you mean?
    Mr. Ford. Yes, basically the latter. These are teams that 
are trained to do those type of things.
    Mr. Shays. And so one of the recommendations is that we 
should make better use of them and use them more often?
    Mr. Ford. Yes. We met with--virtually every regional 
security officer that we met with at the five places we visited 
indicated that those teams can provide value added to 
protecting areas that are outside the embassy to the extent 
they have resources to do so.
    Mr. Shays. OK. So basically we have: Not doing enough to 
protect soft targets. And then ways to deal with that one is 
better training home and abroad, and accountability. And you 
are adding surveillance teams to that list that wasn't 
mentioned, that we should make better use of surveillance 
teams, correct?
    Mr. Ford. That's correct.
    Mr. Shays. Anything else you want to add to that list?
    Mr. Ford. I think the other area really gets more into the 
strategic outline of what soft target strategy ought to be. 
This gets into an issue of what set of requirements that the 
Department is now studying which will have resource 
implications. And basically we have a recommendation that the 
Department basically put out that strategy, lay out the 
requirements and the resources that are going to be required to 
implement it. And this will be tied directly to schools and 
perhaps other facilities outside the embassy.
    Mr. Shays. OK. This is all very helpful, and I thank you.
    Mr. Starr and also Ambassador and Mr. Miller, is there 
anything that you think the GAO should have spoken to in terms 
of vulnerabilities? It's really Ambassador made that point. But 
is there anything, Mr. Starr, that you think the subcommittee 
needs to know? We're not looking to tell terrorists what are 
vulnerable, but areas where improvement needs to be made that 
might not have been made by the GAO.
    Mr. Starr. Sir, if there's one point I would like to make, 
it is that we thank the GAO for looking at the soft targets, 
and we do think there's improvements to be made. But I think 
sometimes there's the mistake that al Qaeda and other terrorist 
organizations are moving toward soft targets, they are moving 
away from our hard targets, and the fact is that we see as 
many, if not more, threats every day at our hard targets, and 
we see the type of attacks that they would like to undertake, 
which are catastrophic-type attacks, car bombs and things like 
that, which would not just injure one or two people or maybe 
five in a residence or in a car, but catastrophically, as we 
saw in Nairobi, you know, we had 222 people there killed and 
5,000 injured. So we have to strike a balance between looking 
closely at protecting our people in soft targets, but not 
losing our focus on protecting our hard targets at the same 
time.
    Mr. Shays. Ambassador, what was left out that you would 
like this subcommittee to be aware of?
    Ambassador Bushnell. I would like as much help as possible 
from the Congress and any report that comes out on security of 
our employees overseas to underscore the danger of their 
mission so that we can begin to counteract this notion that 
somehow we are leading exotic and glamorous lives at taxpayers' 
expense. Sixty-four percent have faced crisis, and these 
include our Foreign Service national employees overseas; 87 
percent of people who have been in for 15 years or more. I 
would defy any organization to come up with that statistic. So 
any time there is a mention for need of force protection, which 
we do have, it would certainly help our cause in changing both 
ethos and image to underscore those statistics.
    Mr. Shays. Thank you.
    Mr. Miller, any comment you would like to make?
    Mr. Miller. I don't think I can add to the GAO's 
recommendations.
    Mr. Shays. But schools represent a soft target, right?
    Mr. Miller. They certainly do.
    Mr. Shays. Based on what happened in Russia, I think you, 
Mr. Starr, would agree that was catastrophic?
    Mr. Starr. Yes, sir.
    Mr. Shays. So we're not suggesting that soft targets can't 
be catastrophic either.
    Mr. Starr. No, sir. We're just suggesting that we have both 
to look after.
    Mr. Shays. Right. And I think that's important.
    I'm just going to summarize. I am hearing a report by GAO 
that has basically acknowledged that we are doing pretty good 
at dealing with hard targets. That wasn't the focus of your 
report, but the acknowledgment that we are doing well, but we 
could--and from the first panel, that we could be doing 
obviously better with more resources.
    But we are hearing that, in your report, Mr. Ford, you 
basically said we are not doing enough to deal with soft 
targets; that we need to have better training for employees 
both at home and abroad for them when they go overseas. We're 
hearing that we need to pay more attention to accountability, 
and we may need to flesh that word out a little better; that 
you believe that surveillance teams, Mr. Ford, need to be 
better utilized, excuse me, GAO does. And we're hearing as well 
that there needs to be a strategic focus, which ties in, Mr. 
Starr and the Ambassador's point, but ties in with your point: 
If you have a strategy, you are able to know how to allocate 
limited resources. And resources will always be limited. In my 
judgment, the resources are too limited in terms of protecting 
sites.
    And I would just say for the benefit of Mr. Ruppersberger, 
who's joined us, who serves on the Intelligence Committee--and 
I might add he was appointed to the Intelligence Committee as a 
freshman Member, which is quite, I think, an honor and 
opportunity for him--that Ambassador Bushnell was there when 
the Kenyan bombing took place, pointed out that the loss was 50 
percent, pointed out that for 24 hours they basically were on 
their own because relief teams couldn't get in for a variety of 
reasons, and pointed out to the subcommittee that basically 
September 11th for State Department happened on August 7, 1998; 
and that she said this is the first time she's been able or 
invited to even testify about this experience in spite of the 
fact that she was the Ambassador, which is a failure on our 
part. And my only comment back to her is that September 11th 
began for all Americans on that day, if not sooner.
    At this time, Mr. Ruppersberger, I would give you the 
floor.
    Mr. Ruppersberger. Sure. First, I apologize. I had another 
hearing, and I have another hearing at 3:30.
    Mr. Shays. Apologies are never required.
    Mr. Ruppersberger. Well, I think so, because this is a very 
important issue. And for those of us who have traveled to 
different parts, we understand what's going on as far as 
security, especially with our State Department, but other 
people, too, who work for other agencies, really non-military 
but military also, a lot of these areas that are difficult 
areas where families aren't even allowed to be there because of 
how difficult they are.
    I don't know--and stop me if I'm repeating--but what has 
been our program or our plan with respect to our host nations 
and working with our State Department and having them to assign 
somebody? To just rely on them is one thing, because you don't 
control them, but to assign manpower to work with us that we 
can help train them to help protect us. Can you discuss that 
issue, Ambassador? And then we will go down.
    Mr. Starr, why don't you do that.
    Mr. Starr. Sir, we have a--in my earlier testimony, we do 
rely on the host country's security and police forces to a 
great extent overseas, but we find their response to us uneven. 
In many cases they are exceptionally good and exceptionally 
devoted, have highly trained people, and have an overlapping 
web of forces that include intelligence forces and security 
forces and police forces that help protect us. In other cases 
where we are less successful, where they are not as 
professional, the RSO spends a great deal of time working with 
the local police to try to get protection.
    We have programs such as the Antiterrorism Assistance 
Program where we try to give those countries assistance where 
we identify there is a need that they can help themselves and 
help us and help other Americans. There are other programs out 
there like the INL programs that the State Department has to 
professionalize the police also.
    Overall, I would say that in many places we have excellent 
response, but in many places it is less than excellent, and we 
work to try to improve it where we can.
    Mr. Ruppersberger. Do we have standards in all countries 
that involve host nations and training, or does that go country 
to country?
    Mr. Starr. It's primarily country by country, sir.
    Mr. Ruppersberger. Is that on purpose, or is that just 
because we haven't put a standard together?
    Mr. Starr. I think it's on purpose, sir. The Geneva 
Convention primarily assigns the responsibility for protection 
at diplomatic facilities to the host country. Where we identify 
that they are incapable or have weaknesses, we try to train 
them and try to get them to improve.
    Mr. Ruppersberger. What percentages of countries are 
incapable of giving us the security that we need?
    Mr. Starr. Sir, I would say that every country tries to 
give us security that they can. I would say that--I would be 
hazarding a guess, sir, but my guess would be that at least 30 
percent of the countries out there, it is less than fully 
professional.
    Mr. Ruppersberger. How about from an intelligence 
perspective? I mean, basically it seems to me that your best 
offense is intelligence. Do you have that through the State 
Department? I mean, are you working with other agencies? Is 
that part of your security component, the intelligence end?
    Mr. Starr. We work very closely with the Intelligence 
Community, sir, yes.
    Mr. Ruppersberger. In dealing with issues involving our own 
personal security or U.S. security?
    Mr. Starr. Yes, sir.
    Mr. Ruppersberger. Now, have you discussed the Overseas 
Security Policy Board?
    Mr. Starr. No, sir, we did not.
    Mr. Ruppersberger. Why don't you explain what that is, and 
who the members of the Board are, and does the Board meet, and 
what happens at the meetings?
    Mr. Starr. The Overseas Security Policy Board is a Board of 
security directors of those agencies that are present in our 
overseas community. We have representation from the Defense 
Department, AID; and at this point the Intelligence Community 
is on it, CDC, FAA, FBI, Justice Department. I believe there 
are 22 members on the Overseas Policy Board at this point. We 
meet approximately once every 2 months. We develop policies for 
security overseas, technical, physical, counterintelligence 
policies. We publish them in what is called the 12-FAH, Foreign 
Affairs Handbook. Those standards are applied to all agencies 
serving overseas under a Chief of Mission.
    Mr. Ruppersberger. Do you think that Board can do more? Do 
you think they are doing what they are convened to do?
    Mr. Starr. I think it is an exceptionally good group, sir. 
I think that we do meet often enough, and we are cognizant 
enough of our protective responsibilities that we look 
constantly at evolving threats. And I think that's what our 
challenge is.
    Mr. Ruppersberger. So sharing of information and 
strategies?
    Mr. Starr. Yes, sir.
    Mr. Ruppersberger. OK. How about the Soft Targets Working 
Group? Have you discussed that here today?
    Mr. Starr. Very briefly, sir.
    Mr. Ruppersberger. What agencies are a member of the group, 
and how often does that meet?
    Mr. Starr. At the moment, on one particular committee on 
residential security, we have a Soft Targets Working Group 
under the OSPB, and it is--as I understand it, it is State 
Department, USAID, and I believe it is DOD that is working with 
us on that as well.
    Mr. Ruppersberger. Representatives from all the different 
countries?
    Mr. Starr. No, sir. This would be looking at the agencies 
under the OSPB and looking at what standards we want to write 
or improve for residential security.
    Mr. Ruppersberger. Now, you also, I think, in your 
testimony, you stated that overseas personnel have been on a 
heightened threat alert status since 1998; is that correct?
    Mr. Starr. Yes, sir.
    Mr. Ruppersberger. OK. Is there a danger that long-term 
stress will be detrimental to job performance? Are you seeing 
that now?
    Mr. Starr. Yes, sir. Ambassador Bushnell commented 
specifically on that during her testimony, that it is very 
difficult to find that balance between having somebody on alert 
24 hours a day, 7 days a week, 365 days a year, and trying to 
find that balance and not burning our people out.
    Mr. Ruppersberger. Now, again, I don't want to repeat 
because I didn't come in. The recommendations--I mean, we have 
these hearings, and one of the frustrations about being here is 
that you don't see implementation. Now, what, if anything--and 
let me go down the row. What, if anything, would you like to 
see to implement the resources or a system or move further 
where we need to go, because most of us who have traveled to 
the different parts of the world, and some of those very 
dangerous. There is a lot of anxiety with those people that 
live there with their families. What, is it about resources? 
And let me start, Mr. Miller, and go right down.
    Mr. Miller. We have already gotten $27 million into the 
schools in a fairly short period of time, and the Department 
has asked for $15 million in each of the next 2 fiscal years. 
So, in our judgment, we're getting the resources. It's our job 
then to get the money out and put it to good use.
    Mr. Ruppersberger. Are the resources being used 
effectively? Is the money being used to do the right thing? 
Would you like to see a better standard? Do you think we have a 
standard that is working?
    Mr. Miller. I think we have a good standard. This is always 
monitored and supervised and recommended by the regional 
security officers at post who are the experts on security. So 
we feel that there is a good monitoring process.
    Mr. Ruppersberger. OK. Ambassador?
    Ambassador Bushnell. I'm going to be a broken record here.
    Mr. Ruppersberger. That's OK.
    Ambassador Bushnell. Anything that will portray the 
Department of State as what it is, which is an agency of 
civilian employees who are facing danger at--on a constant 
basis. That means public recognition for what we are facing. 
That means the training for what we are facing, the recruiting 
for what we are facing, the understanding among family members 
of what they face, the resources, and the force protection for 
what we face.
    I would also add that I think we need to look very, very 
carefully at other agencies, because if there's anybody who 
gets it, it is the employees in the Department of State. People 
who are parachuted into posts from the middle of the United 
States, from one agency or another, are actually the most 
vulnerable of our people. And we need to focus, those agencies 
need to focus, on how they're selecting people, how they're 
training people to go overseas, and how they're holding people 
accountable for their own safety overseas.
    Mr. Ruppersberger. I know under Colin Powell's leadership 
there was a lot of emphasis put on capital improvements. Is 
that continuing on under Condoleezza Rice?
    Ambassador Bushnell. That is continuing.
    Mr. Ruppersberger. OK.
    Ambassador Bushnell. All of the programs that former 
Secretary Powell began are continuing under Secretary Rice, I'm 
delighted to say.
    Mr. Ruppersberger. OK, good. Mr. Starr.
    Mr. Starr. Sir, I'm going to be very specific. I agree with 
the GAO's assessment that we need to move from a system where 
we brief our people, both domestically and once they are 
overseas, to where we train our people. In 2003 and 2004, we 
trained 239 officers in the antiterrorism training before they 
went overseas for high and critical-threat-level posts.
    That's not enough. We also augmented that course 
specifically to address Iraq-specific types of threats. Since 
2003 we have put 1,193 people that went to Baghdad and the four 
regional posts through that specific training. I would like to 
see more training for our people, as the GAO report said, prior 
to going to high and critical-threat-level posts.
    Mr. Ruppersberger. OK. So you feel that's probably one of 
the highest priorities is the training?
    Mr. Starr. Yes, sir. I feel that's the biggest bang for the 
buck.
    Mr. Ruppersberger. Should it just be in difficult areas, or 
just all members of the State Department that are going 
overseas as a curriculum that needs to be put forward to these 
employees?
    Mr. Starr. As we move, sir, every 2 to 3 years, I think 
that every member of the State Department should get this 
training. I think that GAO has correctly identified that we 
need to start with our critical and high-threat posts.
    Mr. Ruppersberger. OK. Mr. Ford.
    Mr. Ford. Yes, I agree with that. I think--again, I want to 
repeat some things I said earlier.
    Mr. Shays. You said what?
    Mr. Ford. I agree, first of all, that training is a 
critical issue that needs to be addressed at the Department, as 
I mentioned earlier. But I also think it ought to include all 
the other non-Department employees that are going to be 
stationed overseas, and of which that's about two-thirds of the 
number of people who are currently assigned.
    I also think that there should be a clear set of 
requirements laid out for on the soft targets program that 
clearly spells out what we're going to cover, how much it's 
going to cost, and what the pros and cons of the various 
requirements might be.
    I think that we need to continue to encourage 
accountability mechanisms, because unfortunately at the five 
posts that we visited in the course of doing this work, we 
found that compliance with some of the basic tenets of security 
awareness was not being followed.
    I understand the issue regarding stress, but I also think 
that there was some due diligence on the part of people 
overseas that they tend to become complacent about, and they 
are potentially at risk, in my view. So I think that these 
accountability mechanisms are also important.
    I guess the last thing I would like to mention is the issue 
of surveillance detection activities that can be used to help 
safeguard facilities outside the embassy walls, and I think the 
Department should look into that with regard to what type of 
resources could be applied to help safeguard those other assets 
besides the embassy itself.
    Mr. Ruppersberger. How about the cost factors on what you 
just talked about, any idea?
    Mr. Ford. I'm sorry?
    Mr. Ruppersberger. The cost factors, the money.
    Mr. Ford. Again, the Department has indicated to us that it 
would cost a lot of money to fully implement a lot of these 
requirements, but we haven't seen what the requirements are 
yet. We understand the working group that was cited earlier is 
looking into that issue with regard to what those requirements 
would be and what the associated costs would be. So I don't 
know exactly how much that is, but I think the Department 
should lay that out.
    Mr. Shays. If the gentleman would yield.
    Mr. Ruppersberger. Sure.
    Mr. Shays. When they say it would cost a lot of money, they 
are not being specific in terms of how much it would, in fact, 
cost?
    Mr. Ford. Again, I'm going to defer to Mr. Starr. I 
understand that at one time the Department was proposing, I 
believe, to expand the training courses that--on hands-on 
training earlier this year, and I forget the exact amount that 
they had identified. I believe it's in our report. But it was 
in the neighborhood of $5 to $6 million. That's the only cost 
number that I've seen related to this overall issue.
    Mr. Shays. Before I go to the professional staff, Mr. 
Costa, I would just want to mention this and then see if 
there's any objection to what I'm saying: That it's fairly 
clear State has not defined soft target, that State lacks a 
soft target protection strategy. And this is the third one 
which may, in fact, not be true. State has not fully 
incorporated schools into emergency plans. So I guess, Mr. 
Starr, would you agree with all three of those, or would you 
dispute any of it?
    Mr. Starr. I believe, sir, that in our emergency action 
plans, the last rewrite of it, which was going on while this 
GAO study was under way, we have, in fact, got the latest 
version that fully incorporates schools into our emergency 
action plans. So I think we have addressed that one.
    Your other two questions, sir?
    Mr. Shays. State has not defined soft targets.
    Mr. Starr. We have--it's a difficult question for me, sir.
    Mr. Shays. Let me just say something. How long have you 
been doing this job?
    Mr. Starr. Twenty-five years, sir.
    Mr. Shays. But in this responsibility that you have now.
    Mr. Starr. One year, sir.
    Mr. Shays. OK. You are not going to be able to do 
everything that you have to do in 1 year. This is not a 
judgment of you. It is trying to understand, and have the 
confidence that you understand, what remains to be done. We 
think of our job sometimes as a catalyst.
    Mr. Starr. We are, in fact, writing a soft target strategy 
exactly as GAO suggests.
    Mr. Shays. Good. How about the definition of soft target? 
Are we still kind of wrestling with that?
    Mr. Starr. Yes, sir. Primarily from the standpoint that 
there's a soft target in terms of protection of our personnel 
that we serve, send overseas, and where they are soft targets. 
And then there's the much larger soft target universe of 
American companies, businesses, other types of soft targets 
that we do not control. And our program's trying to provide 
those soft targets with information, from programs such as the 
Overseas Security Advisory Council.
    So we have sort of a dichotomy in the soft targets, the 
ones that we're specifically responsible for, that we fund 
programs for, that we give training to, and then the larger 
soft targets universe which I believe you will be hearing on 
your second panel, American businesses and Americans overseas.
    Mr. Shays. Before I give Mr. Costa some time for 
questioning, I need to be clear. When we talk about critical, 
high, and medium targets, I assume that was at the individual 
and not at the location. Is it more location than individual?
    Mr. Starr. More country, more post-specific, sir.
    Mr. Shays. So a country is a critical or a high or medium?
    Mr. Starr. Usually the actual city that we have the 
establishment in.
    Mr. Shays. That qualifies my comments about--so, for 
instance--and is there anything below medium, or everybody is 
medium? Norway would be medium?
    Mr. Starr. For global terrorism, sir, we really don't look 
at anybody as below medium.
    Mr. Shays. I think that's fair, because at one time we 
didn't think Kenya would have been--we would not have called it 
high or critical probably at one time. So, OK. I'm going to be 
asking when it's my turn, and then we will get to the next 
panel, I will be asking you each, is there any question that we 
should have asked that we didn't? Any question that you will 
regret not having been asked, and we will find out later we 
should have asked the question? So I am asking you to think 
about what that might be. Sometimes the most important part of 
the hearing is the question we never thought to ask that you 
need to answer. And you have a solemn oath to do that. So don't 
leave anything unanswered here.
    Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman.
    My first question is about the Overseas Policy Security 
Board and Overseas Security Advisory Council. According to the 
Foley ARB, they were going to look at the need for a potential 
special commission in the manner of the Inman report to look at 
soft targets broadly, look at training and so forth. As a 
response to the ARB, the Department said they would look at 
that recommendation and come back. What was the result, if you 
know, of that assessment of the recommendation?
    Mr. Starr. As I understand it, the Overseas Security 
Advisory Council convened a few working groups to look 
specifically at the standards dealing with what we consider 
soft targets: Our residences, our residential policy, other 
policies in terms of protection of personnel away from the 
post. We did a review on it. We did, in fact, change the 
standards having to do with residential security. We reviewed 
them from what they had been in 1998, and I believe the 
consensus was that there wasn't a need for a special look at it 
after that. I believe that's what happened with that.
    Mr. Costa. So I guess the followup question then would be 
what is the status, then, of coming up with an all-encompassing 
strategy given the results of the Overseas Policy Security 
Board and Overseas Security Advisory Council? How is that 
coming together?
    Mr. Starr. We are, in fact, in the process of drafting a 
strategy for the State Department in terms of protection of 
soft targets. Once we have that strategy fleshed out, we will 
put it all through the State Department clearance process, but 
also bring it to the Overseas Security Policy Board, which I 
think is the appropriate place with the experience to look at 
that strategy, give us comments on it, and determine whether or 
not what we're doing is appropriate.
    Mr. Costa. Can you make sure we get a copy of that strategy 
as we move forward?
    Mr. Starr. Yes, sir. We are--the report language, I think, 
requires us to give it to you by June 15th, I believe.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.042
    
    [GRAPHIC] [TIFF OMITTED] T2704.043
    
    [GRAPHIC] [TIFF OMITTED] T2704.044
    
    [GRAPHIC] [TIFF OMITTED] T2704.045
    
    [GRAPHIC] [TIFF OMITTED] T2704.046
    
    [GRAPHIC] [TIFF OMITTED] T2704.047
    
    [GRAPHIC] [TIFF OMITTED] T2704.048
    
    [GRAPHIC] [TIFF OMITTED] T2704.049
    
    [GRAPHIC] [TIFF OMITTED] T2704.050
    
    [GRAPHIC] [TIFF OMITTED] T2704.051
    
    [GRAPHIC] [TIFF OMITTED] T2704.052
    
    [GRAPHIC] [TIFF OMITTED] T2704.053
    
    [GRAPHIC] [TIFF OMITTED] T2704.054
    
    [GRAPHIC] [TIFF OMITTED] T2704.055
    
    [GRAPHIC] [TIFF OMITTED] T2704.056
    
    [GRAPHIC] [TIFF OMITTED] T2704.057
    
    [GRAPHIC] [TIFF OMITTED] T2704.058
    
    [GRAPHIC] [TIFF OMITTED] T2704.059
    
    [GRAPHIC] [TIFF OMITTED] T2704.060
    
    [GRAPHIC] [TIFF OMITTED] T2704.061
    
    Mr. Costa. OK. Thank you.
    Ambassador, your comments in your report was finding a 
right balance between living vigilantly and living normally. 
And I guess my question for all the panelists would be, how do 
we do that? How do we find the right balance between living 
vigilantly and living normally? Mr. Ford. Ambassador.
    Ambassador Bushnell. In some respects I have to go back to 
what I keep saying: We have to recognize the reality of what it 
is that Foreign Service people are facing. Therefore, you 
begin, A, with an understanding when you join the Department of 
State that you are getting yourself into a dangerous 
occupation. B, you begin your training. There's the street, 
lots of traffic, look both ways. Right? You turn your head to 
the left, you turn your head to the right. So you begin to 
train people so that some responses become absolutely 
automatic.
    I think it is also a leadership issue in which we begin to 
look at what does the leadership need to do or learn in terms 
of how people pulse? You cannot keep people in a hot 
environment all the time. Sometimes they need to leave. Maybe 
they need a place to recreate which is very, very safe.
    This is a new world for us. It's going to take time. I 
think there are answers out there, there are people who have 
done a lot of research, and we need to begin to look in that 
research, but we're never going to do it until and unless we 
recognize the kind of business we are in.
    Mr. Costa. Thank you.
    Mr. Ford.
    Mr. Ford. Yes. I would like to comment on that. I think 
that, again, based on the trips we took to five posts, there 
are some things that staff overseas, I think, need to be 
reminded of from time to time, and a lot of it has to do with 
basic self-awareness, awareness of what's around you, your work 
habits in terms of when you go to work, the way you go to work. 
And I also believe that given the high level of turnover at 
overseas posts and the fact that many of the people that have 
served there are non-State Department people, that the 
supervisor level at the post needs to make that a priority to 
reinforce security awareness to their staffs, because, again, 
unfortunately, we talked to quite a few people overseas at 
these posts, and while they all acknowledge that they receive 
the training--the briefings and some training in headquarters, 
a lot of them told us, frankly, they weren't following some of 
the basic precepts that they should be following.
    So there needs to be reinforcement. I believe that 
reinforcement should be at the senior level at each of the 
embassies, and I think that it ought to encompass all of the 
employees there, not just the State Department. I think the 
State Department employees we interviewed tended to be a little 
more aware than some of the others.
    Mr. Shays. I would like to just pursue that because it was 
mentioned more than once. Ambassador, in Kenya, was the average 
about what it is in other places, about 50 percent non-State 
Department, or were most in Kenya State Department?
    Ambassador Bushnell. State Department representation was 
about one-third of the mission; two-thirds to overseas 
generally are other agencies.
    Mr. Shays. So it was typical of the averages. I was 
understating it then.
    So you have people from the FBI, from Commerce, from 
Environmental Protection potentially, from the Agency, frankly, 
and others, no secret. You have people from lots of different 
responsibilities. Now, Mr. Starr, are they given the same 
training that would be given? There's always sometimes a 
question of whether the Ambassador has the kind of control over 
these individuals that you need to. But are they given the same 
kind of training, or are they kind of on their own?
    Mr. Starr. Two-part answer, sir. At the current time when 
we are doing the briefing program for the most part for most of 
our people that are going overseas, agencies have the ability 
to either self-certify that they give the same type of 
briefings that we give at the Foreign Service Institute, the 
security overseas seminar or the SAFE program, or their 
personnel attend the Foreign Service Institute training 
programs before they go overseas. So in certain agencies, if 
it's an FBI agent who is already trained in counterterrorism, 
who already has a lot of that training, the FBI, Justice 
Department may self-certify that their people have the level of 
training. AID people or people from CDC or other agencies that 
don't have that thing attend our Foreign Service Institute and 
the training programs.
    Mr. Shays. When they're overseas?
    Mr. Starr. And when they're overseas, they are briefed 
exactly the same as every single person who comes into post. 
Every person under the Chief of Mission gets an arrival 
briefing when they come in and the refresher briefings.
    Mr. Shays. I think Mr. Costa still needs you to answer his 
question. But let me pursue this question that I'm asking now. 
Ambassador, is there anything you would add to the non-State 
Department employees?
    Ambassador Bushnell. In theory, the Chief of Mission can 
agree or not agree to allow every person who works for the 
Federal Government to the post. We run the Ambassadorial 
seminar, and one of the things that I urge the people going 
through the Ambassadorial seminar to do is to deny country 
clearance, as we call it, to people who have not--other 
agencies who have not gone through mandatory training, and 
that's the way we can control that.
    Mr. Shays. OK. Thank you.
    Mr. Starr. Sir, may I add one thing? The DSAC training that 
we are doing, the specific security, antiterrorism training 
that we give to everyone before they go to Iraq, that is for 
every single agency going to that country under Chief of 
Mission.
    Mr. Shays. OK. Mr. Costa.
    Mr. Costa. Thank you. Just, Mr. Starr and Mr. Miller, the 
question again was how do you teach people to find the right 
balance between living vigilantly and normally? And, Mr. Starr 
and Mr. Miller, if you could also address that perhaps from the 
point of view of children as well? But, Mr. Starr?
    Mr. Starr. I believe that's the difference between briefing 
and training. I believe that when you train somebody and you 
refresh them often enough, they don't have to be vigilant 24 
hours a day, but they are engrained with the right types of 
habits. It is that example that Ambassador Bushnell pointed 
out: When you get to a street, you look both ways. If you are 
trained to do it, you will do it. If you are trained to pick up 
countersurveillance training, I think you will have a better 
chance of doing it. And that, I think, is the real difference 
between a briefing program and actual hands-on training before 
you go overseas.
    Mr. Costa. Thank you.
    Mr. Miller.
    Mr. Miller. When you are working with children, the best 
way is to model it. It's the way you conduct yourself as 
parents and the way you conduct yourself as school officials.
    There's the danger of overdoing the comments about danger. 
I sometimes think of the pictures of missing children on milk 
cartons in the morning. I think we sometimes do more harm than 
good. And so my answer is training the adults to provide the 
proper modeling for children.
    Mr. Costa. Thank you.
    I would just like to point out, I actually had the 
opportunity to take the DSAC training several years ago. It was 
very impressive. And based on my experience as well, I see 
particularly the first few days of that training as being 
pretty critical to anybody going overseas. I can't emphasize 
that enough.
    And I'm done. Thank you, Mr. Chairman.
    Mr. Shays. So, let me end by asking: Is there anything that 
we should have asked that we didn't? First off, no, let me do 
this. Is there anything where you disagree with anything 
another panelist has said that you just want to put on the 
record? I will conclude that you don't disagree if I don't get 
this answer. So you understand the importance of answering that 
question. Silence means you agree.
    Is there anything, Mr. Ford, that you heard that you just 
feel needs to be stated that you disagree with?
    Mr. Ford. No, sir.
    Mr. Shays. Mr. Starr.
    Mr. Starr. No, sir.
    Mr. Shays. Ambassador.
    Ambassador Bushnell. No.
    Mr. Shays. Mr. Miller.
    Mr. Miller. No.
    Mr. Shays. Thank you.
    Then finally this last question: Is there anything we need 
to put on the record that we haven't? We will start with you, 
Mr. Miller. We didn't talk much about schools. I will tell you 
one reason we didn't. I didn't choose to talk about 
vulnerabilities at schools. I'm not going to, some of it is 
intuitive, but frankly that's a discussion I will make sure 
that my staff has with you. I don't care to have publicly 
discussed all the ways that schools could be vulnerable. But is 
there anything on the record you want to put on? Anything you 
want to put on the record?
    Mr. Miller. Well, I'd put on the record that it's been a 
long time coming that there is this kind of interest in schools 
and the protection, and it's come very, very generously, in our 
opinion, and our office and these schools overseas are 
appreciative. We've had a 100 percent positive response. And we 
all know that there's a lot more to be done, and I think we've 
gotten off to a good start.
    Mr. Shays. Ambassador.
    Ambassador Bushnell. Mr. Chairman, I can't resist, so here 
goes. How do we recognize and take care of the psychological 
impact on employees and family members of living constantly 
with the stress of possibly being a soft or hard target? Thank 
you.
    Mr. Shays. Well, do you think there is something we can do 
that we are not doing?
    Ambassador Bushnell. I think there's a great deal of 
literature on how human beings react to extreme stress. I found 
out when I was trying to figure out what in the world was 
happening to my community in Kenya after the bombing. And that 
literature that exists in--with the military, that exists with 
the people who deal with disasters has not yet moved into the 
mainstream or the Department.
    Mr. Shays. So we deal with how other professions deal with 
stress like this, the military and so on. And their point is 
they are in the line of fire, and we need to be doing that for 
the State Department and other people who work in the 
embassies. That's what I'm hearing you say?
    Ambassador Bushnell. Both to use what the knowledge we have 
and the best practices that are out there; and also, if there 
is not knowledge or best practice, to try and find it from our 
group, because what happens to us ultimately happens to the 
American people.
    Mr. Shays. So what I'm hearing you say just--and correct me 
if I'm wrong. I'm hearing you basically say there are people 
who have gone through this experience that aren't being spoken 
to, not being consulted with, not being asked, not being 
monitored in some cases. And I'm hearing you say that there's 
scars out there that haven't healed.
    Ambassador Bushnell. Possibly damage. There are also things 
we could learn from other people. But to suck it up and move 
on, which is essentially what we do, is to not learn a whole 
lot nor to appreciate the possible toll that it's taking, or 
even to celebrate what people have gone through and withstood.
    Mr. Shays. You have given me a lot to think about, thank 
you, and my staff.
    Mr. Starr, anything we need to put on the record?
    Mr. Starr. No, sir.
    Mr. Shays. OK. And I think--was I going the wrong way? Mr. 
Ford.
    Mr. Ford. Given the previous comment made by Ambassador 
Bushnell, I'm not sure who sits on the working group for the 
State Department soft-target strategy, but I'm wondering 
whether someone with the background that she's articulated 
ought to be considered to be a part of that other than just the 
security experts. So my comment has to do with making sure that 
the people who are going to make future decisions on what our 
strategy is going to be have taken into consideration some of 
those perspectives.
    Mr. Shays. Let me just say in my own words what I'm hearing 
you basically say is on that council, if we are just having 
people who have a military police background and not include 
issues that the Ambassador's raised, then it's a committee that 
may need to be expanded or----
    Mr. Ford. Well, I'm not sure of the makeup of the working 
group, but--I would defer to Mr. Starr. But I believe that if, 
in fact, they don't have someone on that working group that has 
some awareness of that perspective, that perhaps they ought to 
consider including them so you will have a little broader 
discussion on it.
    Mr. Shays. Great. Thank you.
    I think this panel has been very helpful to the 
subcommittee, and we do appreciate each and every one of you 
being here. And, Ambassador, particularly thank you for your 
candidness and for giving this hearing a bit more reality. 
Thank you very much. Thank you all. Thank you all for your good 
work and your service to a magnificent country. Thank you.
    Our next panel and final panel is Ambassador Wesley W. 
Egan, retired; Ambassador John W. Limbert; and Mr. Joseph 
Petro, executive vice president and managing director, 
Citigroup Security and Investigative Services, Citigroup.
    So, Ambassador Egan, we have you right there. That's good. 
You can stay standing because I'm going to swear you in. As you 
know, this being an investigative committee, we swear in all 
our witnesses and ask you to raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all three witnesses have 
responded in the affirmative.
    I will just point out that your entire statement will be 
submitted into the record. Also, you may have heard points that 
you--from the first panel that you wish to incorporate in your 
statements, so feel free.
    We are just going to go as you sit. Ambassador Egan, we 
will go with you first. I don't know why I said retired. I 
never think of Ambassadors as retired. OK.
    Ambassador Egan. It does happen. You actually do have that 
title.
    Mr. Shays. OK.
    Ambassador Egan. Well, technically you don't carry the 
title in a formal way for life unless you retired at the rank 
of career Ambassador.
    Mr. Shays. I got you.
    Ambassador Egan. But if you served as a Chief of Mission on 
one or more occasions, the title is often extended as a 
courtesy.
    Mr. Shays. Well, thank you all for your work. And you are 
an excellent panel. We look forward to your testimony. 
Ambassador Egan, you go first.

 STATEMENTS OF AMBASSADOR WESLEY W. EGAN, RET., CHAIRMAN, 2003 
FOLEY ACCOUNTABILITY REVIEW BOARD; AMBASSADOR JOHN W. LIMBERT, 
  PRESIDENT, AMERICAN FOREIGN SERVICE ASSOCIATION; AND JOSEPH 
    PETRO, EXECUTIVE VICE PRESIDENT AND MANAGING DIRECTOR, 
    CITIGROUP SECURITY AND INVESTIGATIVE SERVICES, CITIGROUP

                  STATEMENT OF WESLEY W. EGAN

    Ambassador Egan. Mr. Chairman, members of the subcommittee, 
in 2003 I chaired an accountability review board to examine the 
circumstances of the October 2002 murder of Laurence Foley, the 
USAID executive officer at the American Embassy in Amman, 
Jordan. I'd like to summarize the testimony I submitted earlier 
in response to your invitation to testify this afternoon.
    Our board made two recommendations. The first was that the 
Secretary of State convene a special commission to make 
recommendations to improve the personal security of all 
personnel serving abroad under the authority of the Chief of 
Mission regardless of department or agency affiliation. The 
second recommendation was that the embassy in Amman take 
several specific steps to improve personal and residential 
security.
    I believe the Department and the embassy accepted and have 
begun to implement most of those post-specific recommendations. 
I also understand that the Department has decided to implement 
some of those recommendations at other overseas posts.
    With respect to the first recommendation, however, the 
Department of State informed the Congress in June 2003 that it 
agreed with the spirit and the intent of the recommendation, 
but that it did not agree that it was necessary to convene a 
special commission. Rather, the Department reported that the 
existing Overseas Policy Security Board and the Overseas 
Security Advisory Council would be asked to review the 
Department's implementation of our recommendations and to 
advise whether it would be worthwhile to convene such a 
commission. I do not know what action those groups have taken 
or recommended.
    This recommendation, the first recommendation, reflected 
our concern that there are no government-wide standards for 
briefing, training, or selecting U.S. Government personnel and 
contract employees for long-term or temporary duty at posts 
with a high or critical threat rating for terrorism. This is 
especially troubling when you consider that there are over 
50,000 people in 180 countries working at over 260 diplomatic 
and consular facilities, and that over 50 percent of those 
facilities are now rated as subject to a high or critical 
threat for terrorism.
    At the time of the board's visit to Amman in February 2003, 
the embassy was a good example of a modern, busy, high-threat 
and growing multiagency post. The Ambassador's staff included 
140 direct hire American personnel representing 10 Federal 
agencies and departments, over 350 personnel on temporary duty, 
more than 70 contract employees, over 200 family members, and 
approximately 200 Jordanian staff. In addition, the embassy 
compound was one of the first constructed to Inman standards as 
recommended in the 1985 report of the Secretary of State's 
Advisory Panel on Overseas Security, the Inman Commission. In 
short, the embassy was a fortress.
    We found, however, that despite a high level of security 
awareness, personnel under the authority of the Chief of 
Mission for whose security and well-being the Ambassador bears 
ultimate responsibility had not received the same or in many 
cases even similar security preparation before arriving at 
post. Personnel who arrived in Amman directly from other 
overseas assignments often received no special security 
preparation at all. Most contract employees received little or 
no security-related training or preparation unless required by 
their contracts. And there was no mechanism to ensure that 
different agency contracts included such a requirement. For 
most of those who received security training, it was not 
specific to Jordan.
    The embassy post report made no mention of security 
considerations or the growing terrorist threat. The Ambassador, 
his regional security officer, and the rest of his senior staff 
did not generally know what, if any, security preparation 
American staff and dependents had received before arriving at 
post. And yet, all Americans at post, regardless of their 
employment status and department or agency affiliation, were 
vulnerable to the same threat.
    There had been a marked increase in threat reporting 
available to the embassy beginning with the millennium plot in 
1999, which indicated a growing threat against American targets 
outside the heavily protected chancery compound. The reporting 
was sufficiently credible that the Community Counterterrorism 
Board called for a special community advisory, a special 
Intelligence Community advisory, on Jordan in early 2002. That 
advisory underscored that these threats deserved special 
attention. The frequency of guidance from post management to 
embassy personnel and the larger American community on how to 
respond increased as a result. There were approximately 25 such 
advisory communications to personnel and the American community 
between February and December 2002. The specificity, tone, and 
nature of the countermeasures recommended, however, did not 
change notably.
    We were also troubled that, despite the increasing threat, 
many Washington officials and embassy personnel considered 
personal security a matter of personal choice. In my view, this 
reflects an attitude probably more common among civilian than 
military personnel that we cannot afford.
    The killing of an American representative overseas is not a 
personal or a private matter. Personnel selected for assignment 
overseas, but especially for duty at high and critical-threat 
posts, should be just as accountable for their conduct when it 
comes to personal security preparedness as they are for other 
aspects of their professional and personal behavior.
    Over the years we have made our facilities harder to 
attack, so it's not surprising that the vast majority of 
attacks against U.S. Government personnel have occurred outside 
our protected buildings and facilities. Tragically, when they 
are outside their hardened offices, which is where most of 
their most important work is, in fact, done, they are soft-
targets. And, sadly there have been several ARBs convened since 
our work in 2003.
    By temperament and training some personnel deal effectively 
with threatening environments, and some do not. Before 1985, 
existing groups in the foreign affairs community had been 
unable or unmotivated to make sweeping changes such as those 
recommended by the Inman Commission. So, too, we thought an 
Inman-like commission could challenge the foreign affairs 
community to look at recruitment, training and assignments, 
personal security countermeasures, and the accountability of 
personnel for the implementation of such measures in new ways 
to improve the ability of our people to survive in an 
increasingly hostile overseas environment. Inman helped us 
harden our facilities. We thought we needed something like the 
Inman Commission to help us harden our personnel.
    No combination of security awareness, training standards, 
preparedness, or accountability can guarantee the protection of 
our people and our facilities. Human nature being what it is, 
security is inconvenient, especially for those unaccustomed to 
being targets. And there's no doubt that those who attack us 
will be quick to modify their tactics in response to our 
countermeasures. My colleagues and I thought, however, that we 
had identified problems that were widespread and that required 
a new approach. It may well be that 20 years after the work of 
Admiral Inman's commission, existing tools like the Overseas 
Policy Security Board and the Overseas Security Advisory 
Council can design an effective interagency approach for the 
protection of those who represent us abroad. I don't know, but 
there is no doubt in my mind that we need to do better.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Ambassador. And thank you for your 
good work.
    [The prepared statement of Ambassador Egan follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.062
    
    [GRAPHIC] [TIFF OMITTED] T2704.063
    
    [GRAPHIC] [TIFF OMITTED] T2704.064
    
    [GRAPHIC] [TIFF OMITTED] T2704.065
    
    Mr. Shays. Ambassador.

                  STATEMENT OF JOHN W. LIMBERT

    Ambassador Limbert. Thank you, Mr. Chairman. On behalf of 
the 13,000 members of the American Foreign Service Association 
[AFSA], I thank you for this opportunity to share our views 
with the subcommittee on the crucial matter of protecting soft 
targets overseas.
    Let me first note that AFSA speaks as the independent voice 
of the Foreign Service. We do not speak for the State 
Department or for any foreign affairs agency. We do not clear 
our statements with anyone in the executive branch. Our first 
concern is always the safety----
    Mr. Shays. I have to ask you, what is that like after so 
many years of having to clear it?
    Ambassador Limbert. It's very unusual.
    Mr. Shays. You must go through some kind of mental anxiety 
or something.
    Ambassador Limbert. Habits of a career are difficult to 
break, sir, but perhaps the bad news is that in a few months I 
have to go back into the regular system, so I'll have to 
relearn.
    Mr. Shays. I'm sorry. I'm sure you will get it right back 
real quick.
    Ambassador Limbert. But it's fun while it lasts.
    Mr. Shays. Enjoy it.
    Ambassador Limbert. But our first concern is always the 
safety, the well-being, and security of those men and women who 
represent our country overseas.
    For those of us in the Foreign Service, the term ``soft 
target'' is a euphemism. What we are talking about is the 
murder, kidnapping, and maiming of our colleagues, our spouses, 
and our children in school buildings and buses, in homes and 
cars, in recreation centers and places of worship, and in 
restaurants and shops as we live our daily lives with all those 
activities that we take for granted here in this blessed land. 
We take these threats seriously, and we take them personally. 
And so, Mr. Chairman, we very much welcome and appreciate your 
holding these hearings.
    Four days ago we added three names of friends killed in the 
line of duty to the memorial plaques in the lobby of the State 
Department. These plaques now contain 218 names. Although I 
would like to say never again, I'm almost certain that we will 
be adding more names in the future.
    AFSA's concerns about embassy security took on new urgency 
after the 1998 bombings of our embassies in Nairobi and Dar es 
Salaam. We note the sobering findings of the Accountability 
Review Board investigating those attacks that the, ``emergence 
of sophisticated and global terrorist networks aimed at U.S. 
interests abroad have dramatically changed the threat 
environment.''
    Mr. Chairman, in plain English that means it's gotten a lot 
more dangerous out there. Now places that were once considered 
safe are no longer so.
    Mr. Shays. You know, I just have to interrupt you again. 
I've never heard someone in the State Department say ``in plain 
English'' before. So this is----
    Ambassador Limbert. Well, as you pointed out, sir, I'd 
better not get used to it.
    Mr. Shays. OK. I'm sorry.
    Ambassador Limbert. The report said that terrorists could 
strike us anywhere. And they did. They hit us in Amman, in 
Islamabad, in Aden, and even in New York City and Washington.
    AFSA applauds the work of administrations in the Congress 
for their diligence in improving the security of our missions 
since 1998, but the work of protecting our people is far from 
done. Mr. Chairman, as we made our workplaces harder to attack, 
we knew that terrorists would target families in places that 
did not have the same protection. And they did just that in 
Islamabad, Istanbul, Bali, Amman, and Riyadh.
    AFSA thanks the Congress, particularly the appropriations 
committees of the House and Senate, for recognizing that 
protection goes beyond the bricks and wire of our chanceries. 
These committees required the Department of State to develop 
plans to protect soft targets and provided funding to begin the 
process.
    Mr. Chairman, before continuing I need to say that I'm not 
a security specialist, but I do have 32 years experience in the 
Foreign Service, mostly in the Arab and the Islamic world, and 
have served in places such as Tehran, Algiers, and Baghdad. 
With that caveat, I would like to discuss some of our concerns 
on behalf of all our members posted abroad.
    Our Foreign Service world is never without risk. Now, we 
cannot eliminate that risk, but we can at least recognize its 
existence. For example, we need to think about the risk at 
places such as the Protestant International Church in 
Islamabad, Pakistan, where terrorists murdered embassy worker 
Barbara Green and her 17-year-old daughter Kristin Wormsley in 
March 2002.
    We frequently use hotels for meetings, for housing 
officials on temporary duty and congressional and staff 
delegations. These places and the many schools our children 
attend are all in the private sector. As such, there may be 
limits to what the U.S. Government can do, but we cannot ignore 
them, and we should make sure our security strategy includes 
them.
    A word about schools. AFSA welcomes Congress's attention to 
school security, but we also ask for consideration of school 
buses, school bus stops where children gather. We understand 
that, when the GAO team recently met with families overseas, 
these last two areas were of very high concern. The appalling 
2004 attack on Russian children in Beslan showed us that 
terrorists no longer consider schools to be off limits.
    AFSA supports State's plan for protecting overseas schools, 
and urges its continued funding and review as conditions 
change, for we must always review, change, and improve our 
procedures because the terrorists will certainly change and 
improve theirs.
    Leadership is key to safety. Chiefs of Mission overseas set 
the example by seeking protection for the people who work for 
them. These overseas leaders also need the support of leaders 
in the administration and in Congress, for if we are to hold 
accountable our Chiefs of Mission in accordance with their 
letters of instruction from the President, then it is not too 
much to ask that we also hold accountable those in the 
Department and in OMB who must support their efforts.
    Finally, instructions, security requirements, and methods 
of enforcement must all be clear and consistent whether they 
come from Washington or from the leadership at a post.
    Sporadic attention to the security of our personnel from 
terrorist attacks sends the message that we do not take 
terrorism seriously and do not care about the safety of our 
people.
    Absent those, we cannot make overseas duty 100 percent 
safe, nor can the Foreign Service represent the people overseas 
by staying in fortresses. Under these conditions, AFSA urges 
the Department to take whatever measures are necessary to 
provide safety and security to our people, all of them, 
overseas. We also urge Congress to support the Department in 
providing that safety and security so vital to our people and 
our operations. This funding and support should be consistent. 
Our world is not getting safer.
    Mr. Chairman, if people lose interest after a few years and 
support dries up and if we relapse into old ways of doing 
business, more of our colleagues will die. I guarantee it.
    Again, Mr. Chairman, I wish to express my appreciation to 
you for listening to the views of the men and women of the 
Foreign Service on this very important issue. We thank you for 
requesting the GAO study and for conducting this hearing. We 
also ask that you continue to review this area as oversight 
responsibility to see that the protection of soft targets 
continue.
    Thank you. I am happy to answer questions.
    [The prepared statement of Ambassador Limbert follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.066
    
    [GRAPHIC] [TIFF OMITTED] T2704.067
    
    [GRAPHIC] [TIFF OMITTED] T2704.068
    
    [GRAPHIC] [TIFF OMITTED] T2704.069
    
    [GRAPHIC] [TIFF OMITTED] T2704.070
    
    [GRAPHIC] [TIFF OMITTED] T2704.071
    
    [GRAPHIC] [TIFF OMITTED] T2704.072
    
    Mr. Shays. Thank you. Mr. Petro, while you are executive 
vice president and managing director of Citigroup Security and 
Investigative Services, I will just note for the record from 
1971 to 1993 you were special agent and senior executive for 
the U.S. Secret Service where you had numerous operation and 
management positions. Basically you supervised the Presidential 
and Vice Presidential Protective Divisions in the Washington 
field office. We thank you for your service then and your 
insights now.

                   STATEMENT OF JOSEPH PETRO

    Mr. Petro. Thank you, Mr. Chairman. I am here today 
representing private industry, to discuss the important issue 
of protecting both our citizens when they travel, work and live 
abroad, and our business facilities located around the world. I 
am also here representing Citigroup, where I served as 
executive vice president and managing director of our company's 
Global Security Investigative Services.
    Citigroup is the world's largest financial services 
company, formed in 1998 with the merger of Travelers Group and 
Citicorp. Today Citigroup employs nearly 300,000 people. We 
operate in over 100 countries and serve more than 200 million 
customer accounts. We also have been operating in some 
countries for over 100 years.
    The daily functioning of the world economy depends on the 
American financial services network of companies like 
Citigroup. It is critical to maintain a safe environment for 
our businesses, especially in this time of heightened threats 
and actual events of terrorism directed against Americans and 
American interests. The private sector is vital. The private 
sector is at risk, and the private sector must be involved in 
any solution.
    American businesses cannot adequately protect themselves 
against a terrorist attack or effectively anticipate or prepare 
for new security risks without good intelligence. The ability 
to protect our companies is seriously hampered by this lack of 
reliable, timely and actionable information. The strict 
definition of what is a soft target can be debated but American 
customer-facing businesses are potential targets wherever they 
are located.
    Unlike government facilities such as embassies and military 
bases, a bank branch is either open or closed. Customers must 
have easy access, and there must be identifiable signage. 
Citigroup businesses operate in nearly 12,000 facilities around 
the world. To adequately harden these buildings present serious 
challenges, and in many instances there are practical, physical 
or business limitations.
    There are some reasonable precautions that the private 
sector can implement on its own to lower the risk of terrorism. 
Erecting barriers to prevent vehicle access, removing 
unnecessary company signage, screening visitors, moving 
noncustomer interfacing businesses to low-profile facilities, 
dispersing key business functions, increasing security guard 
presence, extending perimeters, and effective training all 
contribute to providing a safer environment for our people and 
businesses.
    However, there are at least two realities that make it 
difficult to protect soft targets.
    First, a sufficiently motivated attacker may eventually 
outsmart any static defense. This is an operational reality 
even for a highly defended site.
    Second, even in today's high risk environment, sustaining a 
high level of security indefinitely is just not possible. There 
is a tendency for anxiety levels to reduce as time passes 
between attacks. This tendency for complacency affects both the 
private and the public sectors.
    Protection against terrorism must be a shared 
responsibility between American business and the government. We 
can no longer work in isolation. The private sector is limited 
in the types of defensive measures that can be implemented, and 
needs the government's cooperation to effectively serve our 
security interests. We are prepared to take appropriate 
physical protective measures, but sharing risk assessment 
expertise and meaningful intelligence information would improve 
our security posture.
    We are aware that the State Department has no authority and 
lacks the resources to protect private U.S. citizens traveling 
or residing abroad. Large multinational companies understand 
the unrealistic restrictions on business travel that would have 
to be imposed to completely protect every U.S. national 
traveling abroad. I believe the private sector fully 
understands these risks. In those instances when an employee 
must travel to a dangerous country, there is a question that 
must always be asked: How important is this trip? When a trip 
is determined to be business critical, there are ways to 
minimize the risk. Limiting the time in the country, using 
reliable and secure ground transportation, carefully planning 
the schedule and limiting its distribution, maintaining a low 
profile and employing security professionals when required are 
all simple, common sense precautions.
    The private sector, its employees and customers directly 
benefit from the number of programs sponsored by the State 
Department to better help us understand the risks in foreign 
countries and to help us establish practical solutions to 
mitigate those risks. One such program is the Overseas Security 
Advisory Council [OSAC]. Established in 1985 by Secretary 
George Shultz, OSAC has become one of the best examples of a 
private-public partnership that really has worked. Today, more 
than 3,300 U.S. companies with operations overseas belong to 
OSAC. Information is freely shared with the private sector in 
efficient and multiple ways. The OSAC security Web site 
receives nearly 2 million inquiries a month from the private 
sector. Trained intelligence analysts use briefings, reports, 
studies and other media to provide up-to-date information to 
our companies. There are more than 100 local OSAC country 
councils that provide services directly to our in country 
staff, regardless of their nationality. These services are 
provided to the private sector without charge, and any company 
with overseas operations may join OSAC.
    We in the private sector recognize the inherent risk 
associated with doing business outside the United States. Risk 
management is an integral part of our business decisionmaking 
process. The risk of being a soft-target does not eliminate the 
need for U.S. companies to operate in foreign countries. By 
continuing to work in partnership with companies like the State 
Department, the CIA, the FBI and the Department of Homeland 
Security, we believe that these risks can be better understood, 
better managed and significantly reduced.
    Mr. Chairman, thank you for the hearing. I look forward to 
answering any of your questions.
    [The prepared statement of Mr. Petro follows:]

    [GRAPHIC] [TIFF OMITTED] T2704.073
    
    [GRAPHIC] [TIFF OMITTED] T2704.074
    
    [GRAPHIC] [TIFF OMITTED] T2704.075
    
    Mr. Shays. Thank you, Mr. Petro. I just note for the record 
that the GAO staff and State Department have kept people here 
to listen to your testimony, and I appreciate that. And Mr. 
Starr in particular, thank you for staying.
    I am going to start off by having the staff director of the 
subcommittee and the counsel to the subcommittee, Mr. Halloran, 
ask questions.
    Mr. Halloran. May I ask each of you to respond to testimony 
you heard in the first panel, particularly the GAO findings and 
recommendations and the observations of other witnesses.
    Ambassador Egan. From my perspective, the most important 
aspect of the problem is that it be approached on an 
interagency basis, on a comprehensive basis, on a mandatory 
basis, and with strict terms of accountability, both for those 
in positions of authority and post management with staffs under 
their jurisdiction, and also on the part of individual U.S. 
Government employees, regardless of their payroll authority to 
the implementation of those countermeasures.
    I feel quite strongly and I speak for the interagency 
members of my Accountability Review Board, I think, it is 
important I think to note that board, and it is typical of the 
way these boards are constituted, included only two Foreign 
Service officers, one of whom was the Executive Secretary, a 
specific individual nominated by the DCI, and other staff with 
military and law enforcement and USAID backgrounds. So these 
boards are not State Department boards. As a result the 
recommendations from those boards, and I think the first 
recommendation of our report in March 2002 is typical of that, 
tend to take a rather catholic, interagency, comprehensive view 
of such things.
    I also cannot emphasize enough that the issue is not just 
training or training as opposed to briefing, but in my view it 
is also related to recruitment, selection and assignments. 
There are some people who should not be sent to serve in some 
of the most dangerous environments, and we should not go about 
the process casually of creating liabilities for ourselves.
    I agree very much with the comment of my friend and 
colleague Ambassador Bushnell that any and all attention to 
these issues with respect to both hardened facilities and what 
are, as John said, called soft targets, any and all attention 
that helps provide the resources and in some cases the change 
of attitude required to protect our people overseas in a better 
way I think is probably welcomed by any of us with experience 
in the foreign affairs community.
    Mr. Halloran. Ambassador Limbert.
    Ambassador Limbert. AFSA certainly welcomes what GAO did, 
and we work closely with them. What is the most remarkable 
piece for me is something many of us have known for a long 
time, and which they discovered. Perhaps the key to all this is 
a cultural change in our service, in our mission, a cultural 
change which inculcates a necessity for safety and protection 
of the whole community.
    The best work of our Chiefs of Mission, the best work of 
our wonderful colleagues from the Diplomatic Security Service, 
will go for naught if people are not listening and if you do 
not inculcate that culture right from the beginning.
    They spoke about training Ambassadors, Chiefs of Mission. 
If by the time somebody becomes an ambassador he does not 
instinctively know that he is responsible for the safety of his 
entire community, something is wrong and it is too late. That 
is in fact what the GAO found when it went overseas, and that 
is probably for us the most significant part of the report.
    Mr. Petro. What I found interesting about the early 
testimony, first I heard nothing that I did not agree with. I 
think most of it was very correct. What I did find interesting 
was that many of the issues that the government and in 
particular the State Department is dealing with, the private 
sector is dealing with in quite the same way. We certainly are 
very sympathetic, and it is a very interesting issue between 
briefing and training, in how we brief or train our people when 
they go and live in other countries, particularly high risk 
countries.
    We are also dealing with the whole issue of balancing 
vigilance and normalcy. That is a huge business issue in terms 
of where we put our attention. I am often reminded in the 
company we do have a business to run. That is why we are there. 
We obviously have to provide a safe environment for our 
business and people but we are there to conduct business. That 
sometimes is not so easy in a difficult place.
    Mr. Shays. Do they have to remind you often of that?
    Mr. Petro. No. There is a bias in the private sector that 
people in the public sector do not understand that and we do. 
We do.
    And the other difference in the private sector is we also 
have to balance risk with the cost to reduce them. There are a 
lot of costs that are evaluated as we balance those risks and 
whether or not we want to put people in certain places. That is 
the human cost and the reputational cost and all of the various 
costs that may be associated with a particular decision.
    Risk assessment and making decisions on where the private 
sector wants to operate overseas has become a very complex 
issue.
    Mr. Halloran. Thank you. Let me start the other direction 
because you mentioned the tension between vigilance and 
normalcy. Can't vigilance be normalcy? Given the threats we 
face, the question is in the cycle we face between crisis, 
response, recommendations and forget it, what you call the 
tendency to complacency. How do you break that cycle and raise 
the normalcy bar?
    Mr. Petro. I think it has been broken. Normalcy today is 
not what it was 3 or 5 years ago. It is a much higher vigilance 
in terms of protecting our facilities and our employees. That 
has changed at least for our lifetimes.
    The issue of being vigilant, any company that was in New 
York City on September 11th is certainly well aware of how 
important it is to be vigilant, not just in terms of business 
continuity and being able to reconstruct a business, but in 
protecting our employees and having policies and procedures 
that create an environment where our employees feel safe, feel 
comfortable and are not afraid to come to work.
    Mr. Halloran. Ambassador, how do you level out the cycle 
between crisis response and trying to forget it is all out 
there?
    Ambassador Limbert. It is an excellent question because 
when it translates into a drying up of resources and attention 
and support, then in my view we are inviting another 
catastrophe. We build some more facilities, we put in 
technology, and a few years later we forget. Maybe there has 
not been an incident for a couple of years, we forget about it 
and get hit with something bigger and worse.
    I worked in counterterrorism before September 11th, in the 
interval between 1998 and September 11th, and we also talked 
about draining the swamp in Afghanistan. To be very frank, we 
did not know how big the swamp was. To paraphrase what was said 
in ``Jaws,'' we need a bigger boat to get that swamp drained. 
So yes, consistency of funding, so 1 and 2-year efforts, and 
not just funding but support.
    These things are not easy. It is not all money. Management 
is there, too. For example, in my last posting in West Africa, 
we had motion sensors, security cameras, we had barriers that 
went up and down automatically. In 3 months those things did 
not work any more. The heat, the humidity, the dust ate them 
alive. The technology, the local infrastructure would not 
support it. So you wait 6 months for a technician to come out 
and fix these things, and it turned out the subcontractor, the 
supplier who put the thing in, had gone bankrupt and left no 
specifications.
    This really is not money. A lot of money has been spent. 
This is management and leadership as well to make sure this 
thing is done right. That is why I said, to repeat, thank you 
for holding these hearings and thank you for the oversight.
    Ambassador Egan. I am not comfortable with the effort to 
make a distinction between vigilance and normalcy. In my 31 
years in the service, I spent 26 of those overseas, and 
vigilance was a normal part of living and working in those 
overseas environments. Some of them in the old days were 
considered quite low threat. Today they are quite high threat. 
But it is not like getting on the Metro and coming to work in a 
metropolitan area. It is a different way of living and working, 
and it therefore imposes different requirements and levels of 
responsibility on the individuals engaged in that. So it is a 
distinction I would not be interested in pursuing very far.
    John is absolutely correct, our most valuable resource in 
our representation overseas are the people who do it for us, 
not the buildings, not the bricks and mortar. I think one of 
the most difficult challenges is how you manage those official 
communities overseas in such a way that you can maintain that 
vigilance at a constantly effective level in such a way that 
people are still capable of doing the jobs they have been sent 
there to do. If they are not capable of achieving that 
equilibrium in their own person, then I think you have to ask 
whether or not they should be there.
    Certainly the threats are in the aggregate much greater 
today than they were 10 or 15 years ago, and yet the size of 
our overseas nonmilitary presence is much greater today than it 
was 10 or 15 years ago.
    Mr. Halloran. Finally, let me pursue the area of risk 
communication. We had some discussions back and forth to the 
State Department about elements of the GAO report and what 
would be in this hearing in terms of communicating risks and 
information that might not be classified but was considered 
sensitive enough that it probably should not be discussed in a 
forum like this. But in the environment in which we live, what 
would you see as the essential elements of risk communication? 
What do people need to know about the risk, despite the fact 
that we might be telling people about those risks?
    We know where schools are. Terrorists, bad people, know 
school bus routes that do not vary that often. How do you make 
that balance?
    Ambassador Egan. I don't think the process of establishing 
the level of risk is particularly difficult. I don't think the 
process of establishing standards to meet that risk is 
necessarily that complicated either. We have done it to a very 
large extent in many of our buildings, either in terms of new 
construction standards or in terms of buildings that we went 
back and rebuilt.
    The number of recommendations from a variety of 
accountability review boards and other groups that have been 
implemented and implemented successfully make a difference. I 
think the weakest link in the chain is creating the environment 
in which people take that guidance, training, advice, 
responsibility, seriously.
    It is not essentially a money issue. It costs money to 
train people. It costs money to brief people. It costs money to 
put surveillance detection units on the street. It costs money 
to put static guards on residences. It costs money to fortify 
our missions, but you do not want those diplomatic facilities 
to be fortresses from which our representatives never emerge, 
and you also want people to know that if they do not, to put it 
starkly, follow the rules with respect to what the community 
thinks the way they should act in such an environment, that 
there will be a price to pay for not following those rules and 
it should not be allowed to go to the lengths where that price 
is a human life. It is very much a personnel, management, 
accountability responsibility issue I think at this stage of 
the game.
    Ambassador Limbert. I could not agree more. I would just 
point out our starting point today is very different from what 
it was 20 or 30 years ago. The world is just a lot more 
dangerous. On April 26th, the State Department issued a public 
announcement for American citizens warning them of dangers in 
the border towns in northern Mexico where apparently there is 
drug warfare going on between gangs and these shootouts, about 
30 people have been killed, 30 U.S. citizens kidnapped or 
killed in the past 8 months, and the violence has spread as far 
as the bridges going across into the United States.
    Now our children go to school. We have five posts along the 
border. The children of the families stationed there go to 
school in the United States. They cross those bridges every 
day. That is the kind of world that we are in. This is not 
terror and this is not even terrorism. We have not gotten into 
areas other than terrorism.
    Crime is out there, civil instability is out there. All of 
these things affect our people. This is what we are looking at. 
This is why I go back and say we welcome the attention of the 
GAO and the subcommittee to all of these issues which will 
protect our people overseas.
    Mr. Petro. Official travelers overseas are not the only 
ones subject to high risk. In the past year, two of our own 
employees were killed in bombings of bank branches, one in 
Argentina and one in Greece. The private sector is not immune 
to this either. We agonize over a lot of the same decisions as 
the State Department.
    One of my big concerns is that we may not fully understand 
the risk in certain countries, cities and neighborhoods. Some 
are obvious, and some are not so obvious. We are very dependent 
on information we can get from official sources about risk 
because we are obviously dealing with issues like employee 
anxiety, the ability of our employees to feel comfortable when 
they come to work, whether that is in New York City or Amman, 
Jordan. There are issues in both those kinds of places. So we 
are dealing with that all over the world.
    Many of our own business decisions have to be based on 
those kinds of risk assessments. But without good solid 
information, those risk assessments may not be correct.
    Mr. Shays. Thank you, gentlemen.
    First, Mr. Petro, getting into this issue of vigilance and 
normalcy, working with Secret Service, it has always amazed me 
that they can do their job for such a long period of time. My 
mind would start to wander and I would be thinking of something 
else. Is there a method to which you train people? There is 
nothing normal about why you are on duty. It would just help me 
understand. Are they doing their work for 2 hours and off for 2 
hours, or are they on 8 hours straight looking at everyone and 
anticipating the worse?
    Mr. Petro. Certainly in the Secret Service vigilance is the 
name of the game. The reason that the Secret Service I believe 
is able to maintain a high degree of vigilance all of the time 
is really training. The Secret Service puts a tremendous amount 
of effort and resources into training so that responses become 
instinctive and they do it sort of automatically. It is like 
what the Ambassador said earlier about looking left and right 
at a street. Under stress, people will act/react instinctively. 
If you are properly trained, hopefully that instinct will be 
good.
    Mr. Shays. When the person is not on duty, do they still 
think that way?
    Mr. Petro. When I was off duty, I was always looking 
around, yes. No, it is a very difficult thing to 
compartmentalize. When I was in the Secret Service, you worry 
about your responsibility all the time, whether you were there 
or not there.
    I feel the same way working in the private sector as well. 
I think we have to worry about things that keep not just the 
company safe, but the employees safe, and it is a huge 
responsibility for a company like Citigroup.
    Mr. Shays. During the war in the Gulf in 1991, we 
Congressmen and Congresswomen were instructed not to stop right 
behind a car at a redlight in case people got out so we would 
have some possibility of getting around the car or something. 
There were other things that you were told, and then you find 
yourself doing that instinctively. Is some of this almost a 
habit?
    Mr. Petro. If you are trainable enough, it becomes a habit. 
If there is a lesson, and what I have heard from almost 
everyone, is training. Training and repetitive training. You 
cannot just train someone once and send them off to a foreign 
post and expect them to maintain that level of instinctive 
behavior. It has to be repetitive.
    Mr. Shays. So, for instance, knowing not to be right close 
to a car, other things that I am not aware of that you would 
tell someone, they would just do it and it would become normal? 
They do things that tend to be helpful if they were attacked?
    Mr. Petro. It is things like that, like being attentive. 
You should be attentive and notice things. Someone mentioned 
countersurveillance. You ought to be aware of your surroundings 
all the time. You can train someone to do that, and it becomes 
instinctive. You automatically do that when you step out of a 
building. You pay attention to what is around you.
    Mr. Shays. Ambassador Egan, from the first panel what was 
the point you agreed most strongly with and disagreed most 
strongly, whether Mr. Ford, Mr. Starr, Ambassador Bushnell or 
Mr. Miller, anything they said you strongly agreed or disagreed 
with?
    Ambassador Egan. I most strongly agreed with the sentiment 
expressed in the report and the testimony of each member of the 
panel, this is an area of security that needs to be addressed 
in a way other than business as usual. Whether there are 
attitudinal changes, procedural changes, selection changes, 
there seemed to be a fairly broad consensus on that and I think 
that consensus is correct and I think it is important that it 
be sustained.
    What I felt was addressed less effectively in the report 
and in part by the other witnesses, but that is also because 
they were representing particular capacities, is the broadness 
of the issue and the extent to which every American employee 
that represents this country overseas is vulnerable to the same 
risk. The terrorist does not care what your payroll authority 
is. Larry Foley was not selected, was not targeted because he 
was the executive officer of USAID, he was targeted because he 
passed across their screen. He was put under surveillance for 
no more than 2 or 3 days. His personal security habits were 
found to be weak, and he was easily killed.
    Mr. Shays. By weak, you mean doing the same thing each day?
    Ambassador Egan. His habits were predictable. His timing 
and route to work were predictable. He was a very effective 
USAID agency security officer. He worked closely with the RSO. 
He worked closely with the AID Director. He reminded USAC staff 
of effective countermeasures, but he felt he had reached a 
stage in his life that he didn't want to have to live that way 
any more and he paid an extremely high price for it.
    Accountability works both ways. You can talk until you are 
blue in the face about getting people, for example, to vary 
their times and routes to work. But if the embassy staff 
meeting is every morning at 8:15, it is not going to have much 
of an effect. I think not the weakness but the area not of 
sufficient focus is that we are not just talking about State 
Department officials, we are talking about every civilian and 
military representative under the Chief of Mission who 
represents this country overseas, and that is where I think we 
are probably weakest.
    Mr. Shays. Were you surprised there was a killing in 
Jordan? When you heard this, did you say, my God, not a 
surprise?
    Ambassador Egan. Well----
    Mr. Shays. Not even that it was successful, just the 
attempt?
    Ambassador Egan. I was surprised because I did not realize 
the extent to which the environment in Jordan and the region 
had changed with respect to Americans since I left Amman in 
July 1998. My feeling about that environment was unfortunately 
still reflected in a lot of language in the consular 
information sheet, the poster board, etc., that gave people the 
information that certainly by the standards of the Middle East 
and certainly by the standards of Beirut or Damascus, Amman is 
pretty safe duty and it is a great post for families.
    The other side of that coin is beginning in December 1999, 
the intel reporting on American specific threats and especially 
threats to American targets outside of that embassy was like a 
drum roll. Now it is easy to say that when you look back over 3 
years of intel and retrospect, but it was sufficiently alarming 
that the community in Washington gathered and put out a special 
Intelligence Community advisory documenting the nature and 
credibility of these threats and waving a flag that people 
needed to pay attention.
    During that same period, two Israeli diplomats were wounded 
in an assassination attempt. The Deputy Director of the 
Jordanian Intelligence Service escaped an attempted 
assassination by a bomb in his car. An American embassy 
employee was roughed up in a street demonstration. The signals 
were pretty clear. If I had been following that intelligence 
for 3 years, I probably would not have been surprised.
    Mr. Shays. Thank you very much.
    Ambassador Limbert.
    Ambassador Limbert. Well, there was not much that we really 
disagreed with in the report or in the statements. The only 
thing which struck me as a little odd was the report referred 
to the need to train Chiefs of Mission to be more aware of 
protection. I don't think that is the key. As I mentioned 
earlier, by the time someone becomes Chief of Mission in our 
service, I am sure he or she are already very well aware of 
those responsibilities.
    Mr. Shays. Sometimes the Chief of Missions might be a 
political employee.
    Ambassador Limbert. That is true, but it is hard to speak 
to them in this setting.
    Mr. Shays. That is totally out of order.
    Ambassador Limbert. Congressman, we would very much wish it 
otherwise.
    Mr. Shays. I can't wait until you get back to the State 
Department and they watch what you are saying here.
    Ambassador Limbert. Exactly.
    Mr. Shays. I am being a little facetious. It is important 
that you elaborate because what I am hearing you say, if you 
have been around a few times through the State Department, and 
you are now Chief of Mission, there is no excuse. In other 
words, it has been embedded in them by all their experiences.
    So now is there a weak link here when it comes to the 
potential of political appointees, not that we should not make 
political appointees, but does that speak to the fact that they 
need a different kind of training?
    Ambassador Limbert. Yes, sir. The best Chief of Mission I 
ever worked for was a political appointee.
    Mr. Shays. That is important to put on the record.
    Ambassador Limbert. But his strength was knowing the 
strength of his staff and the strength of his deputy and 
security officer, the strength of the people who worked for him 
who--and he knew instinctively this is what he had to do. But 
these things about safety and security, they appear so simple. 
Vary your times, vary your routes. Do not wash your car, so if 
someone was tampering with it you will see the fingerprints on 
the body of the car. It is very simple stuff apparently, but 
very difficult to inculcate into our culture. That is what we 
are really talking about is this cultural change where these 
things matter and we start them from the beginning and everyone 
is responsible for safety and security.
    Mr. Shays. I happen to believe that people should get 
incredible training, and if you deter in terms of normalcy or 
vigilance, I go with vigilance. They are going to have to learn 
to have that be normal. I happen to believe in the work that I 
do and the observations I make. Maybe that needs to be 
qualified.
    Ambassador Limbert. Sir, I agree with you and my colleagues 
that without vigilance at our overseas posts there can be no 
normalcy.
    Mr. Shays. In some cases you need professionals who do 
security, maybe sometimes to drive the car so that the 
individual does not drive, and I realize the Ambassador does 
not drive but there may be the need to have regular employees 
be driven, and I think that happens. So that is one area that 
they do not have to be vigilant on top of all of the other ways 
that they have to think.
    Mr. Petro, maybe you can speak to that. Doesn't that 
sometimes speak, though, to having professionals do some part 
of the vigilance so you don't have to do everything?
    Mr. Petro. I think as a practical matter that is the best 
way to do it, but it is not all that practical or attainable. 
That is the reality. But of course that would be the best.
    Mr. Shays. So you do it for some and not for everyone.
    What do you agree with most and disagree with most?
    Mr. Petro. Two things. The discussions earlier today on 
training is what I would agree with most. There is no question 
about that. The training should be a high priority across the 
board.
    The thing I would comment on, and I would first like to say 
I appreciate the opportunity that the private sector is here. I 
think that is an important statement that the risks that our 
Foreign Service and other American officials face overseas is a 
real one and we all admire their dedication and what they do 
for our country. But also we have private sector people all 
over the world traveling and living in foreign countries.
    I think the whole definition of soft-targets----
    Mr. Shays. I need to get more focus. I am asking the 
question you agree with most.
    Mr. Petro. I agree most with the training issue. I would 
like to amplify on some of the things discussed earlier and 
perhaps not discussed specifically, and that is the whole issue 
of the role of the private sector in this issue of protecting 
U.S. citizens abroad. I think it is an important issue. I think 
it says something that the private sector was actually invited 
to this hearing to speak.
    Al Qaeda, from what I have read, has two stated objectives. 
One is to destroy the U.S. economy and the other is to kill 
Americans. One of the reasons that Mr. Foley was killed was 
because he was an American. We have a lot of Americans all over 
the world.
    The other issue is the threat to Americans is not really 
just overseas. The threat today has no borders. Americans are 
at risk not just overseas but also here. I think as this 
process develops in terms of developing procedures and training 
for our Foreign Service representatives, I would like to see 
the private sector also involved in this so the benefit of that 
progress can also be given to the private sector.
    Mr. Shays. That triggers a question. Having come from the 
public sector, is there anything you learned that you think was 
very helpful to you in the work that you do now?
    Mr. Petro. What I learned from the private sector?
    Mr. Shays. Yes. Having been in the private sector, is there 
any different perspective that would have been helpful to you 
when you were in the public sector? I don't know if there is. 
If so, I would like to make it a part of the record.
    Mr. Petro. That is a good question. The priorities in the 
private sector are different than in the government. The 
private sector is there to serve the shareholders and make 
money. That is the stated objective and that is their priority 
in terms of providing good shareholder value and return on 
investment.
    That emphasis I think has been altered in the last several 
years, and certainly one of the things that I learned as I 
became more and more involved in the private sector, is there 
is a sensitivity to not just making money but also protecting 
the assets of the company, which includes its people. I think 
the private sector has recognized the importance of that and is 
willing to invest large sums of money which ultimately affect 
earnings, invest a large amount of money to put in programs and 
procedures to protect their employees.
    Mr. Shays. In some ways have resources been more available 
in the private sector than the public sector?
    Mr. Petro. I am not sure I would compare the two. You have 
a different set of calculations. There is a whole series of 
processes to go through in the government to get budgets 
approved and so forth. In a similar way there are processes in 
the private sector. From what I have experienced, it has been 
easier to get things approved in the private sector than it was 
in the public sector.
    Mr. Shays. The general concept is 3 pass on a decision in 
the private sector and 11 in the public sector. It makes for a 
lack of accountability or even a sense that you had a play in 
the decision.
    I am prepared to have counsel ask questions, and I would 
ask if there is any answer you want to put on the record before 
we adjourn?
    Mr. Halloran. I just wanted to ask if any of you had a 
comment about Mr. Starr's rather diplomatic response when he 
was asked about host nation support and his educated guess was 
30 percent were unprofessional or not of professional standard 
in terms of support they could provide to the embassy in terms 
of their law enforcement cooperation and support. We have seen 
that as well. Some nations otherwise sophisticated or Western 
just do not think there is a war on terrorism, and do not see 
the kind of external security that our embassy might require.
    What are your experiences in terms of the variability of 
host nation support and the importance that has on soft target 
protections.
    Ambassador Egan. I was Ambassador for the first time in a 
small country called Guinea-Bissau. It was called Portuguese 
Africa in the early 1980's, 1983; 95 percent of my American 
staff were non-State Department. There was no local 
intelligence law enforcement or security capability on the part 
of the host government. That was 22 years ago. It was a very 
safe working environment.
    Jordan has one of the most sophisticated intelligence 
services I have ever worked with. They are very, very good and 
we use them a lot. The relationship is an intimate one, as is 
the relationship with the local security and law enforcement 
officials, the equivalent of the FBI. They were flabbergasted 
at Larry Foley's death. The two guys that did it, one Libyan 
and one Jordanian, supplied and instructed by al-Zarqawi, were 
not even on their screen and it took them 2 weeks to find them.
    Cairo, which when I served there as the Deputy Chief of 
Mission during the Gulf war, was our largest embassy in the 
world with 2,500 staff. Again, an intimate relationship with 
Egyptian intelligence, law enforcement and security personnel 
and even during the first Gulf war, a reasonably comfortable 
environment in which Americans could serve despite the fact 
that one American was wounded in an attack on an embassy van 
driven by an embassy driver with an embassy security officer in 
the front seat bringing a group of employees in from a 
consolidated housing complex.
    But those were different times. A security environment in 
that part of the world is different now. The risks are greater, 
and our exposure is greater.
    I cannot comment on Mr. Starr's 30 percent figure. Suffice 
it to say, in the case of Jordan the confidence of the services 
was superb, and they were surprised at Larry's killing. In the 
case of Guinea-Bissau there were no services and we did not 
have a problem.
    Ambassador Limbert. The biggest change I have seen over the 
last 30 years, or 20 years perhaps, is, and this is a good 
lesson that we have learned, is that we know now, we have a 
better sense now, when we should pull people out or when we 
should have fewer people there or when we should not have 
families in a position. Part of the equation are the 
capabilities and the willingness of our hosts to fulfill their 
responsibilities under international law. 26 years ago, I was 
involved in the capture of our embassy in Tehran. It was very 
clear in retrospect, looking back, that we were defenseless 
against the kind of thing that happened. And the book's 
solution was we all should have been gone and maybe two or 
three people left there. But this is obviously one of the 
hardest things we do. You make the judgment and then put, fit 
your people that are there, how many people do you send, how 
many people do you send families in, and the country's 
willingness to respond to those kinds of factors is a huge 
factor.
    Ambassador Egan. Clearly I do not have the in-depth 
experience in foreign countries as my colleagues do, but I have 
worked on a superficial basis in 80 or 85 countries, in my 
former career, so I have some sense of how governments react to 
security issues and how they support the Secret Service when we 
bring people into their country.
    My assessment is that in most cases, and I guess the 30 
percent is maybe a reasonable number, is not that these 
countries do not want to do it for us, they just cannot. They 
do not have the resources. It is not possible. It is not any 
reflection on their feelings toward the United States, it is 
just that they cannot do it.
    Mr. Shays. What should we put on the record that we have 
not? Is there any question you are prepared to answer that we 
should have asked?
    Mr. Petro. I will just reiterate that first of all, thank 
you for the opportunity for the private sector to be here. If 
there was a question I would like to see asked or at least a 
statement put in the record, it is I think Americans are at 
risk everywhere, and Americans are Americans, whether official 
Americans or nonofficial Americans, and I would like to see 
whatever comes out of these hearings at least have some impact 
on the private sector.
    Mr. Shays. Thank you.
    Ambassador Limbert. Mr. Chairman, I am sure I will think of 
something at 2 a.m.
    Mr. Shays. You can contact the subcommittee, maybe not at 
2, but we can put it in the record.
    Ambassador Limbert. Of course. With all seriousness, 
perhaps the question out there that remains, the question that 
remains is how do we ensure followup and implementation of all 
these good things that we are doing to protect soft-targets, 
that the good steps translate into protection and they 
translate into followup? That I did not hear or at least I did 
not hear it taken up.
    Mr. Shays. Fair enough.
    Ambassador Egan. Mr. Chairman, very briefly, I cannot 
resist commenting on your point about political appointees.
    Mr. Shays. I was reacting to Ambassador Limbert's point.
    Ambassador Egan. I would say in many cases political 
appointees are more sensitive to some of these concerns because 
the environment is newer to them. They do not fall into the 
trap of those in the career service after 25 or 30 years, yes, 
yes, we have done that. Yes, yes, I know how that works. Often 
they ask more difficult questions and are more impatient with 
the bureaucratic response.
    Mr. Shays. That last point I can agree with.
    Ambassador Egan. Second, please keep the attention focused 
on this issue, long term, yourself, other members of the 
subcommittee and the full committee and other Members of 
Congress because it is important to all of you and to all of 
us.
    Finally, I think the key is there has to be a professional 
price paid for lack of attention to security. If you do not 
qualify in a language, a particular language, you will not get 
the assignment and you may not get the promotion. If you do not 
qualify in terms of the way you handle your own personal 
security, the personal security of your family and your sense 
of responsibility for your colleagues, then there ought to be a 
professional price paid for that as well.
    Mr. Shays. That is a very nice way to end this hearing. 
This has been a very educational hearing, first and second 
panel both. I thank you for your service to your country.
    And when you do a good job in the private sector, you are 
serving Americans as well and it is important that you provide 
products that we all enjoy and help us be more efficient. That 
is equally important. I thank you for your service to our 
country and for your participation on this panel.
    With that, we adjourn the hearing.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
